<html>
<title> - NOMINATIONS OF THE 112TH CONGRESS, SECOND SESSION</title>
<body><pre>[Senate Hearing 112-510]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-510

 
                  NOMINATIONS OF THE 112TH CONGRESS, 
                             SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       MARCH 28 AND JULY 18, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
75-653                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afb8a788abbdbbbca0ada4b8e6aba7a5e6">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                             March 28, 2012
Nominations of BG (Ret.) Coral Wong Pietsch and Margaret Bartley, each 
        to be Judge of U.S. Court of Appeals for Veterans Claims


                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    66
Boozman, Hon. John, U.S. Senator from Arkansas...................     4

                               WITNESSES

Pietsch, BG (Ret.) Coral Wong, nominee to be judge, U.S. Court of 
  Appeals for Veterans' Claims...................................     6
    Prepared statement...........................................     7
    Response to posthearing questions submitted by Hon. Mark 
      Begich.....................................................     9
    Questionnaire for Presidential nominees......................    11
    Letter from the Judicial Conference of the United States.....    26
Bartley, Margaret, nominee to be judge, U.S. Court of Appeals for 
  Veterans' Claims...............................................    26
    Prepared statement...........................................    28
    Response to posthearing questions submitted by Hon. Mark 
      Begich.....................................................    29
    Questionnaire for Presidential nominees......................    31
    Letter from the Judicial Conference of the United States.....    60

                                APPENDIX

Allen, Helene L., Honolulu, HI; letter...........................    69
Andersson, Stephen D., Director of Criminal Justice Operations, 
  U.S. Department of Justice; letter.............................    70
Banks, Sara K'imipono, Jr., Specialist and Videographer, 
  University of Hawaii at Manoa; letter..........................    71
Black, LTG Scott C., U.S. Army (Ret.); letter....................    72
Bramlett, GEN David A., U.S. Army (Ret.); letter.................    73
Bush, Brian X., Chief, Environmental and Labor Law, U.S. Air 
  Force Academy; COL, U.S. Army JAG Corps (Ret.); letter.........    74
Chu, Rai Saint, Attorney; letter.................................    75
Coyne, COL James M., U.S. Army (Ret.); letter....................    76
Gandy, BG Raymond, Jr., U.S. Army (Ret.); letter.................    78
Hoe, Allen K., Attorney at Law; letter...........................    79
Jones, LTC Arthurine, U.S. Army, Civil Affairs; letter...........    80
Keller, COL Thomas R., U.S. Army (Ret.); letter..................    82
Kubo, Edward H., Jr., Circuit Court Judge, First Circuit, State 
  of Hawaii; letter..............................................    83
Maxwell, COL Mark David, U.S. Army; letter.......................    84
Passen, Andy, Transition Director, U.S. Embassy, Kabul; prepared 
  statement......................................................    86
Pullen, COL Randy, U.S. Army (Ret.); letter......................    86
  Attachment.....................................................    88
Shogren, Gregory, Assistant United States Attorney, U.S. 
  Department of Justice; letter..................................    92
Soong, COL Melvin K., JAG, U.S. Army (Ret.), Circuit Court Judge, 
  First Circuit, State of Hawaii; letter.........................    93
Thomason, COL Terry E., U.S. Army (Ret.); letter.................    94
Ueoka, Les, Commissioner, Hawaii Civil Rights Commission; 
  prepared statement.............................................    95
Wellman, Arthur, Attorney, Col., JA, U.S. Army (Ret.); letter....    96
Wong, Lisa, Manager, Human Resources, Training, Health and 
  Safety, Hawaiian and Cultural Programs, Hawaii Convention 
  Center; letter.................................................    98
                              ----------                              

                             July 18, 2012
Nomination of Thomas Skerik Sowers II, Ph.D. to be Assistant Secretary 
 of Public and Intergovernmental Affairs, U.S. Department of Veterans 
                                Affairs
                                SENATORS

Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......    99
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................   101
Boozman, Hon. John, U.S. Senator from Arkansas...................   122
Begich, Hon. Mark, U.S. Senator from Alaska......................   126
Webb, Hon. Jim, U.S. Senator from Virginia.......................   128

                               WITNESSES

McCaskill, Hon. Claire, U.S. Senator from Missouri...............   100
Sowers, Thomas Skerik II, Ph.D., nominee to be Assistant 
  Secretary of Public and Intergovernmental Affairs, U.S. 
  Department of Veterans Affairs.................................   104
    Prepared statement...........................................   105
    Response to prehearing questions from Hon. Patty Murray......   106
    Questionnaire for Presidential nominees......................   110
    Letter from the Office of Government Ethics..................   117
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   118


   NOMINATION OF CORAL WONG PIETSCH, BG (RET.) AND MARGARET BARTLEY 
    NOMINEES TO BE JUDGES, U.S. COURT OF APPEALS FOR VETERANS CLAIMS

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:45 a.m., in 
room 418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Akaka, Begich, Burr, Isakson, and 
Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning. Welcome to today's hearing. 
We are here today to consider the nominations of Ms. Margaret 
Bartley and General Coral Wong Pietsch to be judges of the U.S. 
Court of Appeals for Veterans Claims. I am pleased to welcome 
the nominees and their families who are here today, and I 
congratulate each one of you on your nomination.
    The nominees sitting before us have impressive resumes, 
strong credentials, and a long history of service. We will 
learn more about their qualifications during their 
introductions so I will not spend time repeating what we will 
hear very shortly.
    But as we begin today's hearing, I think it is really 
important to recognize some of the realities facing the larger 
disability claims system and, as a result, the Court.
    It is no secret there are severe problems with the claims 
system and some continuing trends that cannot be ignored. We 
know it takes VA too long to issue decisions. We know VA's 
error rate remains far too high. We also know the number and 
complexity of claims being filed continues to grow.
    These are the facts: given the increasing number of claims, 
VA's error rate, and that every veteran has an absolute right 
to appeal an adverse decision of the Board, there is no 
shortage of potential cases that may reach the court in the 
very near future. So, the problems with the larger disability 
claims system become the problems of the Court.
    As our nominees know, the Court of Appeals for Veterans 
Claims holds the special responsibility as the only national 
court that reviews veterans benefits decisions. The importance 
and impact of this mandate are clear.
    For many veterans, the Court is seen as their last hope 
after fighting for months, years, and in some cases decades to 
obtain the benefits they earned. They look to the court for 
fair and equitable resolution of their claims.
    These nominations are of such great importance because of 
the vital role the Court plays in service to our Nation's 
veterans.
    The Court has been asked to meet its unique obligations 
under the pressure of an increasing workload. As the number of 
claims decided by the Board has increased, so has the number of 
appeals being filed with the Court.
    Given the substantial workload that each judge carries, 
these vacancies have to be filled by qualified, competent, and 
motivated individuals; and given the size of the backlog and 
the number of claims being filed, we will no doubt continue to 
see a growth in the number of appeals over time.
    This is why we owe it to our veterans to proceed with these 
nominations in a timely manner.
    In closing, I would note the nominees have each completed 
the Committee's extensive judicial questionnaires, all of which 
will appear in the record of today's hearing.
    There will also be an opportunity for Committee Members to 
submit post-hearing questions, and I would ask the nominees to 
answer and respond to any of those as quickly as possible so 
the Committee will be able to move forward with your 
confirmations.
    Thank you again for appearing before us today, and with 
that, I will turn it over to my Ranking Member, Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Good morning, Madam Chairman, and I want to 
thank you for holding this hearing to consider the 
qualifications of Ms. Bartley and General Pietsch to serve as 
judges of the U.S. Court of Appeals for Veterans Claims.
    I also want to welcome the nominees, their families and 
friends that are here. I thank you all for being here today.
    This hearing gives us an opportunity to fulfill the 
Senate's role of reviewing judicial nominations to ensure that 
our Nation is served as well as possible.
    As with the Federal court, we should consider whether 
candidates to serve on the Veterans Court are impartial, well-
qualified, and have a sound judicial philosophy and 
temperament.
    We should also consider whether a nominee will live up to 
the high standards expected of the judges, which include making 
decisions fairly, promptly, and efficiently.
    The obligation to promptly decide cases is particularly 
important for individuals who come before the Veterans Court. 
By the time an appeal is filed, a sick or injured veteran may 
have faced many years of delays, errors and frustrations while 
going through the VA's claim process.
    When they finally reach the Court, veterans and their 
families should rightfully expect a quick response from an 
entity that was created to provide them the fundamental 
justice, but living up to that expectation has been a real 
challenge for the Court in recent years.
    Since 2007, the Court has received more than 4,000 new 
cases each year, a 53-percent increase over the incoming cases 
in the prior 5 years. Although the Court has made progress in 
handling this work, some veterans are still waiting far too 
long for a decision.
    In fact, it takes an average of 19 months for the court to 
issue a decision by a single judge and over 2 years to issue an 
opinion by a panel of judges.
    With more than 4,400 cases pending at the Court, including 
hundreds waiting on action by a judge, it must be a priority to 
quickly get decisions to everyone who is waiting.
    To that end, any judge confirmed to serve on the Veterans 
Court must be ready to hit the ground running and immediately 
begin to help the Court deal with its caseload. Perhaps more 
importantly, a nominee must be committed to spending each year 
on the bench handling cases with the diligence and sense of 
urgency our Nation's veterans deserve.
    Madam Chairman, before I yield back to you, I want to also 
talk briefly about the expectation that Federal judges will be 
efficient in handling their judicial duties.
    In my view, organizations tend to function at their best 
when most integral to the operation like judges are personally 
engage on a daily basis. If judges have to travel across the 
country to get to Court, it could make it more difficult to 
manage staff, work with other judges, or stay on top of 
caseloads.
    I think the Chairman knows that is why I introduced 
S. 2045. It would require judges of the Veterans Court to live 
within 50 miles of the Court's office which is located here in 
Washington, DC. A similar residency requirement already applies 
to other Federal judges.
    Also I would point out that the duties of a judge are 
supposed to take priority over any other judge's other 
activities. So, it is hard to imagine a reason for a judge to 
live far away from where the court facilities, personnel, and 
other judges are located.
    Madam Chairman, I think this bill is a common sense step to 
increase the efficiency and effectiveness of the Court and 
emphasize, if confirmed, a judge must be 100-percent committed 
to the Court's important work. Our Nation's veterans and their 
families deserve no less.
    So, I look forward to working with the Chairman and my 
colleagues to as expeditiously as we can pass as therein 
S. 2045, and I thank the Chair for this opportunity.
    Chairman Murray. Thank you very much.
    I will now turn to our Committee Members if they have an 
opening statement. Senator Akaka I will begin with you.

              STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Chairman Murray.
    I would like to join you and Ranking Member Burr in 
welcoming our distinguished nominees as well as their lovely 
families who are here today, and I want to say to our nominees 
and their families, aloha, welcome to this hearing this 
morning. It is so good to see all of you, and I want to say 
mahalo, thank you for spending briefly some time to chat about 
your nominations.
    Of course, the Chairman and I and the Committee would like 
to move as quickly as we can so you can get to work as quickly 
as you can too.
    You are extraordinary public servants, and I appreciate 
your desire and commitment to continue to serve our country. 
So, I look forward to hearing your testimonies as well.
    Thank you, Madam Chairman.
    Chairman Murray. Thank you, Senator Akaka.
    Senator Boozman, do you have an opening statement?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. No. Again we appreciate your service. We 
appreciate you being here and all you have done for veterans in 
the past.
    Chairman Murray. Thank you very much.
    With that, I am going to turn to Senator Akaka who will 
introduce General Pietsch.
    Senator Akaka. Thank you, Chairman Murray and Ranking 
Member Burr, for this opportunity and for the leadership here 
in having this hearing and allowing me the opportunity to say a 
few words about General Coral Pietsch.
    My wife Millie and I have known Coral and her husband Jim 
for many years. We also have many mutual friends.
    I have followed her career over the years and have been 
very impressed with her accomplishments, work ethic, and her 
continued desire to serve our country, and she will still 
continue to do that.
    General Pietsch has been involved with the military and 
veterans from the beginning of her professional career. She 
served for 6 years as an active-duty Army JAG officer in Korea 
and at Fort Shafter in Hawaii.
    She is highly competent, and there is one area where I 
would certainly never question her judgment when she decided to 
make Hawaii her permanent home when she left active duty and 
joined the Army reserve. A great decision to call Hawaii home. 
She has adopted what we call the aloha spirit.
    She served in a variety of key Army positions, culminating 
in the assignments as staff advocate. She also served a 4-year 
IMA assignment as the Chief Judge of the U.S. Army Court of 
Criminal Appeals.
    Along the way she has broken some barriers, and I 
understand that she was the first woman general in the U.S. 
Army JAG Corps. I think that was mentioned. She was also the 
Army's first female Asian-American flag officer.
    She volunteered for a year-long deployment in Iraq, where 
she served as the Deputy Rule of Law Coordinator for the 
Baghdad Provincial Reconstruction Team.
    In her civilian life, Coral has worked as an advocate for 
individuals with disabilities. She also served as Deputy 
Attorney General for the State of Hawaii.
    Later Coral moved to the Federal Government, becoming a 
civilian attorney for the Army where she currently serves as 
special assistant and senior civilian counsel to the commanding 
general of the U.S. Army Pacific today.
    Without a doubt, if confirmed, General Pietsch's military 
and civilian legal experience, education, and judgment would be 
a tremendous asset to this Court. I am glad that I am able to 
support President Obama's appointment.
    I was pleasantly surprised to hear that appointment. So I 
am glad to say what I did about you, Coral. Welcome and best 
wishes.
    Thank you, Chairman Murray.
    Chairman Murray. Thank you very much, Senator Akaka.
    I have the pleasure of introducing Ms. Bartley, who is 
currently a senior staff attorney with the National Veterans' 
Legal Services program.
    Ms. Bartley holds a BA from Pennsylvania State University 
and a JD from the American University Washington College of 
Law.
    Ms. Bartley has an extensive record of service to our 
Nation's veterans and their families. Her introduction to the 
Court and veterans' advocacy came while serving in a clinical 
program during law school and continued after graduation with 
service as a judicial law clerk for the Honorable Jonathan 
Steinberg.
    She has represented countless veterans, their independence, 
and survivors before the Board of Veterans' Appeals and the 
Court of Appeals for Veterans Claims over the course of her 
career.
    In addition, to direct representation, a significant 
portion of Ms. Bartley's career has been spent sharing her 
knowledge and experience with other veterans advocates. She 
continues to serve as the director of outreach and education 
for the Veterans' Consortium pro bono program and has also 
written extensively and serves as editor of the Veterans' 
Advocate, a veteran law advocacy journal.
    Given his record of service, clearly Ms. Bartley is no 
stranger to the Court and the issues it faces.
    So thank you very much for your service to veterans to both 
of you, and we look forward to your testimony today.
    Before I swear you in and move to hear your opening 
statements, I know that both of you have families here. So I 
want you each to take a moment to present your guests to the 
Committee. General Wong, we will begin with you.
    General Pietsch. I would like to introduce my husband, 
Professor James H. Peach; my sister, Crystal, and her husband, 
Dave Maddy, and their two children; my nephew, Andy; my niece, 
Christine, with her husband, Rob Wagner, and their two 
children, Bella and Robbie; my sister-in-law, Sandra, and her 
husband, Al Fletcher; my brother-in-law, Bill, and his friend, 
Maxine Rogers; my colleague and friend from the U.S. Army 
Pacific, Janice Neilson; and my Provincial Reconstruction 
teammates, Lieutenant Colonel Arthurine Jones and Mr. Rob 
Merchant.
    Chairman Murray. Very good.
    Ms. Bartley.
    Ms. Bartley. Yes, I would like to introduce my husband 
Charlie, and my two daughters, Eve and Muriel. And I have many 
extended family members here in spirit. I am from a very large 
family.
    Chairman Murray. Very good. Well thank you and welcome and 
our appreciation to all the families of these two amazing women 
and the willingness of both nominees to do this job. So thank 
you very much.
    Under the rules of the Committee, the testimony of all 
Presidential nominees that appear before our Committee have to 
be done under oath. So, I would ask that both of you stand and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth 
so help you God?
    General Pietsch. I do.
    Ms. Bartley. I do.
    Chairman Murray. Thank you very much.
    With that, General Pietsch, we will begin with your 
testimony.

   STATEMENT OF CORAL WONG PIETSCH, BG (RET.), NOMINEE TO BE 
        JUDGE, U.S. COURT OF APPEALS FOR VETERANS CLAIMS

    General Pietsch. Thank you, Madam Chairman.
    Chairman Murray, Ranking Member Burr, and distinguished 
Members of the Committee, thank you for the opportunity to 
appear before you today.
    It is an honor to be a nominee to serve as a judge on the 
U.S. Court of Appeals for Veterans Claims. I want to thank 
President Obama for the confidence he has shown in me by 
nominating me.
    I want to thank you, Senator Akaka, for the very kind words 
of introduction.
    I would like to thank my husband, Professor James H. 
Pietsch, for his unconditional support and love. He has been a 
wonderful partner and advisor in our lifetime of public service 
together.
    I would like to recognize other members of my family and my 
friends in this room today, several of whom traveled far to be 
with us.
    My entire legal career has been in public service in a 
variety of positions, Federal Government and State government, 
military and civilian. I am extremely proud to be a veteran 
having served in the military on active duty and in the 
Reserves.
    As a Deputy Attorney General for the State of Hawaii, I 
learned the depth to which State decisions had on the public at 
large, the consequences, intended or otherwise, of such 
decisions and the privilege of witnessing the democratic 
process at work.
    I believe that this experience will serve me well as a 
judge and remind me to consider the impact of each decision not 
only on the individual but for its precedential value.
    As A former Chair of the Hawaii Civil Rights Commission, I 
know and appreciate the importance of making sure that the 
processes and procedures in place are thorough, timely, and 
responsive. This serves and benefits all parties to the 
process. This too will serve me well if confirmed to the Court.
    As an Army civilian, I have had the opportunity to work 
closely with the military ensuring that our military is trained 
and equipped to accomplish the missions assigned to them.
    This, along with my military service and close affiliation 
with other veterans, including my husband, my brothers and my 
father-in-law, gives me the additional background helpful to 
understand many of the circumstances involving our veterans.
    I am most proud of my service as a member of the U.S. Army, 
from my service in Korea as a young Captain on active duty to 
my service in the Army Reserve as a general officer in the U.S. 
Army Judge Advocate General's Corps.
    Over those years, I had the opportunity and the honor to 
observe and to work with thousands of my fellow American 
citizens in uniform. I know what it is like to serve in a 
combat zone, and I know what it is like to have a family member 
in harm's way.
    In 2007 at the height of the surge, I volunteered to serve, 
as a Department of Defense civilian in Iraq. I was seconded to 
the State Department and served for 1 year on a Provincial 
Reconstruction Team. I served side by side with members of the 
military, sharing experiences, hardships, and accomplishments.
    I saw firsthand what conflict is like, how individuals 
react under extreme stress, and the lasting effects service in 
a combat zone can have on individuals.
    My husband, himself a military veteran and an Army retiree, 
also volunteered to serve during the surge in Iraq in his 
capacity as a professor of law. He was invited to serve as a 
special advisor to the Multi National Force-Iraq Law and Order 
Task Force and was stationed at a forward operating base where 
he served with members of all branches of the U.S. military.
    This experience has given me a much deeper appreciation for 
the sacrifices made by those serving our country and for the 
need to address the needs of those who are experiencing 
difficulties due to their service.
    It has been a great honor and a privilege for me to serve 
our country, and it will be a great honor and a privilege for 
me to continue my service as a judge on the U.S. Court of 
Appeals for Veterans Claims.
    In closing, I want to thank the Committee for the attention 
it has given to my nomination; and if confirmed, I pledge my 
very best efforts in executing the duties of a judge on the 
Court of Appeals for Veterans Claims.
    Thank you very much.
    [The prepared statement of General Pietsch follows:]

     Prepared Statement of Coral Wong Pietsch, Nominee for Judge, 
               U.S. Court of Appeals for Veterans Claims

    Chairman Murray, Ranking Member Burr, and distinguished Members of 
this Committee: Thank you for the opportunity to appear before you 
today. It is an honor to be a nominee to serve as a Judge on the United 
States Court of Appeals for Veterans Claims. I want to thank President 
Obama for the confidence he has shown in me by nominating me.
    I would like to thank my husband, Professor James H. Pietsch, for 
his unconditional support and love. He has been a wonderful partner and 
advisor in our lifetime of public service together. I would also like 
to recognize other members of my family and my friends in this room 
today, several of whom travelled far to be with us.
    My entire legal career has been in public service--in a variety of 
positions--Federal Government and state government, military and 
civilian. I am extremely proud to be a veteran having served in the 
military on active duty and in the Reserves.
    As a Deputy Attorney General for the State of Hawaii, I learned the 
depth to which State decisions had on the public at large, the 
consequences, intended or otherwise, of such decisions and the 
privilege of witnessing the democratic process at work. I believe that 
this experience will serve me well as a Judge and remind me to consider 
the impact of each decision not only on the individual but for its 
precedential value.
    As former Chair of the Hawaii Civil Rights Commission, I know and 
appreciate the importance of making sure that the processes and 
procedures in place are thorough, timely, and responsive. This serves 
and benefits all parties to the process. This too will serve me well if 
confirmed to the Court.
    As an Army civilian attorney I have had the opportunity to work 
closely with the Military ensuring that our Military is trained and 
equipped to accomplish the missions assigned to them. This, along with 
my military service and close affiliation with other veterans, 
including my husband, my brothers and my father-in law, gives me the 
additional background helpful to understand many of the circumstances 
involving our veterans.
    I am most proud of my service as a member of the United States 
Army--from my service in Korea as a young Captain on active duty to my 
service in the Army Reserve as a General Officer in the United States 
Army Judge Advocate General's Corps. Over those years, I had the 
opportunity and the honor to observe and to work with thousands of my 
fellow American citizens in uniform.
    I know what it is like to serve in a combat zone and I know what it 
is like to have a family member in harm's way. In 2007 at the height of 
the Surge, I volunteered to serve, as a Department of Defense civilian 
in Iraq. I was seconded to the State Department and served for one year 
on a Provincial Reconstruction Team. I served side by side with members 
of the military, sharing experiences, hardships, and accomplishments. I 
saw firsthand what conflict is like, how individuals react under 
extreme stress, and the lasting effects service in a combat zone can 
have on individuals. My husband, himself a military veteran and an Army 
retiree, also volunteered to serve during the surge in Iraq in his 
capacity as a professor of law. He was invited to serve as a Special 
Advisor to the Multi National Force-Iraq Law and Order Task Force and 
was stationed at a Forward Operating Base where he served with members 
of all branches of the U.S. military. This experience has given me a 
much deeper appreciation for the sacrifices made by those serving our 
country and for the need to address the needs of those who are 
experiencing difficulty due to their service.
    It has been a great honor and a privilege for me to serve our 
country and it would be a great honor and a privilege for me to 
continue my service as a Judge on the United States Court of Appeals 
for Veterans Claims.

    In closing, I want to thank the Committee for the attention it has 
given to my nomination. If confirmed, I pledge my very best efforts in 
executing the duties of a Judge on the Court of Appeals for Veterans 
Claims.
                                 ______
                                 

  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
Coral Wong Pietsch, BG (Ret.), Nominee for Judge, U.S. Court of Appeals 
                          for Veterans Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Supplemental questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Judicial Conference of the United States 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. Thank you, General Pietsch.
    Ms. Bartley.

  STATEMENT OF MARGARET BARTLEY, NOMINEE TO BE JUDGE, UNITED 
           STATE COURT OF APPEALS FOR VETERANS CLAIMS

    Ms. Bartley. Thank you, Chairman Murray, Ranking Member 
Burr, and distinguished Members of the Committee. I am honored 
to have been nominated by the President to be a judge on the 
U.S. Court of Appeals for Veterans Claims, and I am thankful 
for the opportunity to appear before you as you consider me for 
that position.
    With me today is my husband Charlie, who served as a Marine 
Corps Reservist, and my daughters Eve and Muriel. I am indebted 
to them for their support, patience, and love. I also want to 
thank my large extended family for their support and enthusiasm 
about my nomination.
    I especially thank those who have taken time to mentor me 
over the years, in particular, Ron Abrams and Bart Stichman of 
National Veterans Legal Services Program, and retired Judge 
Jonathan Steinberg.
    Also, I want to thank all of my co-workers and friends who 
are here today to support me. And I thank you, Chairman Murray, 
for your kind introduction.
    While my father, godfather, and many other family members 
served in the Armed Forces, I never considered veterans 
benefits law as a career until my third year of law school. 
During that year, I participated in a public interest clinical 
program that focused on providing representation to veterans 
who were appealing their denial of benefits.
    At the time--this was 1991 and 1992--it was the only 
veterans benefits law school clinic in the country. I handled 
two appeals, one before the Board of Veterans Appeals and one 
before the newly formed Court of Veterans' Appeals. Both of the 
veterans I represented obtained relief. They were rewarded for 
pursuing their appeals and, likewise, I found the experience 
greatly rewarding.
    It was a privilege to use my skills to help these honorable 
men who had contributed several years of their lives to 
protecting our Nation.
    My experiences in the clinic determined my career path. 
Since that time, I have worked to help veterans obtain 
entitlement to benefits and have endeavored to fulfill the 
final wish of so many veterans, which is to ensure that their 
surviving spouse receives death benefits.
    Much of my focus has been on helping service officers, the 
lay representatives who work for veterans service organizations 
and State departments of veterans' affairs, handle claims and 
appeals.
    I develop advocacy strategies based on Veterans Court 
decisions and provide advice to service officers working in VA 
regional offices. In addition, as the Director of Outreach and 
Education for the Veterans' Consortium Pro Bono Program, I 
train and advise lawyers who provide free representation to 
veterans and survivors at the Court.
    The Program helps to reduce the Court's pro se rate while 
giving individual veterans the tremendous benefit of free 
skilled legal assistance.
    During my 18\1/2\ years working in veterans law, it has 
been an honor to exchange ideas with and work with veterans, 
veterans' service organizations, veterans' service officers, 
lawyers who represent veterans, and VA and other government 
employees.
    I understand the great significance of the role of a judge 
on the Court of Appeals for Veterans Claims. It is significant 
to individual veterans who lodge appeals with the Court 
expecting to receive a just decision, and to thousands of 
servicemembers and veterans and their families, who may 
eventually be impacted by a precedent decision of the Court.
    Similarly, the Court's work is of significance to all in 
the U.S. who support the veterans' benefits system with their 
tax dollars. I hope and believe that my professional experience 
and my personal commitment to and understanding of veterans law 
will prepare me to meet the challenges and responsibilities 
inherent in the role of Veterans Court judge.
    In my career thus far, I have been a vigorous advocate for 
veterans on a variety of issues. If confirmed, I would apply 
the same vigor that I have used as an advocate to providing 
fair-minded and impartial review of Board of Veterans' Appeals 
decisions concerning entitlement to VA benefits.
    I thank the Committee for the consideration it is giving to 
my nomination. If confirmed, I would do my utmost to work with 
other judges and with Court staff to provide prompt and 
judicious review of board decisions.
    Chairman Murray, I would be pleased to respond to any 
questions that you or Members of the Committee may have.
    [The prepared statement of Ms. Bartley follows:]

      Prepared Statement of Margaret Bartley, Nominee for Judge, 
               U.S. Court of Appeals for Veterans Claims

    Thank you Chairman Murray, Ranking Member Burr, and distinguished 
Members of the Committee. I am honored to have been nominated by the 
President to be a judge on the U.S. Court of Appeals for Veterans 
Claims and I'm thankful for the opportunity to appear before you as you 
consider me for that position.
    With me today is my husband Charlie, who served as a Marine Corps 
Reservist, and my daughters Eve and Muriel. I am indebted to them for 
their support, patience and love. I also want to thank my large 
extended family for their support and enthusiasm about my nomination. I 
especially thank those who have taken time to mentor me over the years, 
in particular, Ron Abrams and Bart Stichman of National Veterans Legal 
Services Program, and retired Judge Jonathan Steinberg. Also, I want to 
thank all of my co-workers and friends who are here today to support 
me.
    While my father, godfather and many other family members served in 
the Armed Forces, I never considered veterans benefits law as a career 
until my third year of law school. During that year I participated in a 
public interest clinical program that focused on providing 
representation to veterans who were appealing their denial of benefits. 
At the time, this was 1991-1992, it was the only veterans benefits law 
school clinic in the country. I handled two appeals while in law 
school, one before the Board of Veterans' Appeals and one before the 
newly formed Court of Veterans Appeals. Both of the veterans I 
represented obtained relief on appeal. They were rewarded for pursuing 
their appeals and, likewise, I found the experience greatly rewarding. 
It was a privilege to use my skills to help these honorable men who had 
contributed several years of their lives to protecting our Nation.
    My experiences in the clinic determined my career path. Since that 
time, I have worked to help veterans obtain entitlement to benefits and 
have endeavored to fulfill the final wish of so many veterans, which is 
to ensure that their surviving spouse receives death benefits. Much of 
my focus has been on helping service officers, the lay representatives 
who work for veterans service organizations and state departments of 
veterans affairs, handle claims and appeals. I develop advocacy 
strategies based on Veterans Court decisions and provide advice to 
service officers working in VA regional offices.
    In addition, as the Director of Outreach & Education for the 
Veterans Consortium Pro Bono Program, I train and advise lawyers who 
provide free representation to veterans and survivors at the Court. The 
Program helps to reduce the Court's pro se rate while giving individual 
veterans the tremendous benefit of free skilled legal assistance.
    During my 18\1/2\ years working in veterans law, it has been an 
honor to exchange ideas with and work with veterans, veterans service 
organizations, veterans service officers, lawyers who represent 
veterans, and VA and other government employees.
    I understand the great significance of the role of a judge on the 
Court of Appeals for Veterans Claims. It is significant to individual 
veterans who lodge appeals with the Court expecting to receive a just 
decision, and to thousands of servicemembers and veterans and their 
families, who may eventually be impacted by a precedent decision of the 
Court. Similarly, the Court's work is of significance to all in the 
U.S. who support the veterans benefits system with their tax dollars. I 
hope and believe that my professional experience and my personal 
commitment to and understanding of veterans law will prepare me to meet 
the challenges and responsibilities inherent in the role of Veterans 
Court judge.
    In my career thus far, I have been a vigorous advocate for veterans 
on a variety of issues. If confirmed, I would apply the same vigor that 
I have used as an advocate to providing fair-minded and impartial 
review of Board of Veterans'Appeals decisions concerning entitlement to 
VA benefits.
    I thank the Committee for the consideration it is giving to my 
nomination. If confirmed, I would do my utmost to work with other 
judges and with Court staff to provide prompt and judicious review of 
Board decisions.

    Chairman Murray, I would be pleased to respond to any questions 
that you or Members of the Committee may have.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
Margaret Bartley, Nominee for Judge, U.S. Court of Appeals for Veterans 
                                 Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Supplemental questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [A letter from the Judicial Conference of the United States 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. Thank you very much to both of you. Let me 
just begin, I alluded in my opening statement that there is no 
shortage of potential work for this Court. The claims backlog 
continues to grow. VA's error rate is too high, and the number 
and complexity of the claims that are being filed today 
continue to increase.
    Each of those realities as an impact on the Court and its 
work. Yet, the Court has to ensure that veterans do have access 
to meaningful judicial review of VA decisions. There has been 
some debate about how Congress and stakeholders should measure 
the Court's progress. I want to start by asking each of you in 
your opinion how should Court efficiency be measured.
    General Pietsch, I will begin with you.
    General Pietsch. Thank you, Senator Murray.
    First of all, if confirmed, I want to assure the Senators 
that I will do everything in my power to move along the cases 
in an expeditious and a timely manner.
    In terms of what the Court would need to do, at this point 
I would probably like to assess and evaluate the Court's 
processes and procedures and perhaps within that there are ways 
to improve the situation, maybe leveraging, different ways of 
streamlining procedures, maybe leveraging mediation and seeing 
what can be done. Clearly, there would be room for improvement 
and it is something that would be on my top priority list.
    Chairman Murray. Ms. Bartley.
    Ms. Bartley. The Court has had a big problem as both of you 
mentioned earlier, Senators. They have suffered from several 
deficiencies. One is that they have had an increased work load, 
and they have been kind of down one judge for a few years now 
since the last chief judge retired.
    I think that the infusion or injection of additional judges 
would certainly help the situation. As far as how to measure 
efficiency, obviously numbers and the length of time that it 
takes to decide a case, for a case to go through the process at 
the Court, is an issue. So, efficiency can be measured in 
numbers and length of time that it takes.
    Efficiency also, though, we have to keep in mind that the 
quality of the decision, the thoughtfulness of the decision and 
those issues that go to quality are also elements in the whole 
issue of efficiency.
    So, I would say that those are characters or elements that 
I would look to as the numbers, the length of time it is taking 
and also the quality of the decisionmaking.
    Chairman Murray. Thank you very much. I want to ask both of 
you. Each of your careers has been centered on advocacy.
    Ms. Bartley, you served as a tireless advocate for 
veterans.
    General Pietsch, you spent a significant portion of your 
career as a public servant acting as an advocate for the 
government at the State and Federal level.
    Ms. Bartley, let me start with you. How would you respond 
to those who would question your ability to be impartial given 
your lengthy career as an advocate for veterans?
    Ms. Bartley. Thank you, Senator.
    I believe as all of us do in this room I am sure in the 
importance of evenhanded and impartial judges and a judiciary 
system that is impartial, evenhanded, unbiased.
    I have been lucky or blessed maybe to have been able to be 
an advocate. It has been very satisfying for me. It is very 
important to me that veterans be able to, as well as get great 
advocacy, be able to get a final decision that is fair and 
impartial.
    So, I see this as another form of service. It is not 
advocacy. It is removed from the advocacy position. But being 
an unbiased arbiter and reviewer of Board of Veterans' Appeals 
decisions is to me another form of serving the country and 
serving veterans, and I would welcome the opportunity to do 
that and to step into those shoes because I believe that those 
shoes, that of an unbiased judge, that is just as important 
service as being an advocate for veterans on their behalf, a 
biased advocate.
    Chairman Murray. General Pietsch, you have been an advocate 
for State and Federal Government. How would you be impartial?
    General Pietsch. And I have been an advocate for the State 
and for other administrative agencies. I have also been an 
advocate for individuals. During my service as a judge 
advocate, I represented or assisted a number of soldiers with 
their issues and their problems.
    I believe that with both perspectives, as an advocate for 
government and as an advocate for individuals, that I can be 
impartial and definitely unbiased.
    I think that the analytical skills that one develops over 
the years focus you on what the issue is and not necessarily to 
be able to shed or that you should be able to shed what you had 
in the past in terms of your experience.
    But I definitely will bring to the Court a sense of being 
unbiased and impartial and making sure that we look at the 
facts and apply the law accordingly.
    Chairman Murray. Senator Burr.
    Senator Burr. It is clear that the Chairman and I are 
headed in the same direction. So, if you will bear with me as I 
cover ground that she has already covered but maybe with a 
little more specifics.
    During fiscal year 2011, it took 584 days for an appellant 
to receive a single judge decision and 763 for a panel 
decision. Let me ask both of you, what do you believe is a 
reasonable timeframe for the Court to make a decision, general?
    General Pietsch. I am not sure I can answer the question 
with any granularity in terms of the numbers of days. But 
clearly, I believe that both of those figures that you have 
stated can be improved on definitely.
    How to do that is something that I would like to be able to 
access as time goes by. But clearly that is not an acceptable 
rate. We may have to leverage, as was indicated by Ms. Bartley, 
by adding more judges. That will help the process.
    Streamlining. I am not sure where that would happen but 
clearly some sort of streamlining would do. But in terms of the 
numbers of days, clearly that can be improved.
    Senator Burr. Ms. Bartley.
    Ms. Bartley. Well, like General Pietsch, I am reluctant to 
give you an exact number, and I do agree with her that the 584-
day period seems, it is very long.
    Many veterans, I have experienced in my own advocacy 
career, veterans die, they pass away while their case is that 
the Court. It happens before the VA as well. It is not 
acceptable, and I would definitely work to reduce the number of 
days it currently takes.
    Senator Burr. I hope you will remember those advocacy days 
when you take the seat on the bench.
    Ms. Bartley, I have to get into a little more specifics 
about your advocacy work if I can. In 2010 you said, and I 
quote, ``The Board is almost sure to pounce on any 
inconsistencies and find that the lay evidence, that evidence 
in support of the veterans claim, is not credible.''
    In that same speech you said, and I quote, ``The Board 
often avoids unpleasant tasks. As a result, it often fails 
completely to address the lay evidence of record.''
    Before that, in 2009, you suggested that the VA, and I 
quote, ``* * * was overzealous in applying the anti-pyramiding 
rule, thus unfairly denying veterans an appropriate 
evaluation.''
    In a 2009 speech you said this. ``It seems that when the VA 
thinks of inadequate medical exams, they envision a veteran 
receiving an unjustifiably high evaluation because the examiner 
failed to perform a test that could have resulted in a lower 
evaluation.''
    Again in 2006, you wrote, ``Without doubt, advocate view 
with distrust and cynicism VA decisions concerning the 
credibility of probative value and weight assigned to medical 
linkage options.''
    In light of those comments, how would you characterize your 
opinion of the VA in general and the Board of Appeals 
specifically?
    Ms. Bartley. Thank you, Senator.
    How would I characterize my opinion of the VA? I do think 
that perspective matters immensely when that question is asked. 
When I wrote those statements, I was acting as a vigorous 
advocate for veterans, and I believe that there would be many 
veterans, many veterans' advocates, service officers, and 
lawyers who practice in the field who would agree with me on 
those statements as an advocate.
    I understand that there are, as I said, perspective matters 
and that if when VA testifies at their hearings et cetera, 
about the progress that has been made in helping veterans in 
achieving better decisions, I believe that from their 
perspective, they are accurate as well.
    I believe that some progress has been made and that they 
faithfully say that to you. So, I do believe it is a matter of 
perspective. If you are a veteran who has been denied multiple 
times and has had a bad experience with the VA, then your 
perspective would be one similar to the comments that I made 
about VA.
    Senator Burr. Let me ask you about one area if I could.
    As you know, the VA offers need-based pension benefits to 
certain disabled veterans with little income or assets. Last 
year you gave a speech in which you suggested that veterans 
could transfer their assets to others in order to qualify for 
VA pensions.
    In fact, you gave an example of how a veteran with $400,000 
in stock and $50,000 in annual income could qualify for a VA 
pension by setting up a trust.
    Do you believe it could undermine the integrity of the 
pension program if veterans intentionally transfer their assets 
to friends and families in order to qualify for benefits that 
are supposed to be need based?
    Ms. Bartley. Thank you, Senator.
    I should make one clarification and that is that example of 
how a veteran might become entitled to a pension or a pension 
with ``A'' and ``A'' was made based on a VA General Counsel 
precedent opinion that directly addresses that issue.
    It was not something that I came up with on my own. I can 
cite to you at a later date, possibly in writing, the VA 
General Counsel's opinion where they talk about moving assets 
into revocable trusts, and that if the veteran did not have 
control over the funds that would be sufficient in VA's view to 
make him or her so that that income or that net worth would not 
be accountable for VA pensions.
    Senator Burr. You would agree that veterans should not 
intentionally divest themselves for the purposes of becoming 
eligible for a need-based pension?
    Ms. Bartley. Well, Senator, in my role as an advocate, I 
try to let veterans and their advisers know the rules, and VA 
has established this rule.
    I think it could have been--I am not saying for certain--an 
ethical lapse on my part. I was talking to attorneys in 
Montgomery County, the Montgomery County Bar Association, 
dealing with wills and trusts and estates; and I was pointing 
out that this was, indeed, a rule established by VA in their VA 
General Counsel opinion.
    It could well be an ethical lapse if I did not advise them 
of the rule or if they, likewise, had been trained by me, had a 
client who might be able to use that rule and they neglected to 
inform the client of that ruling.
    Senator Burr. I thank you for that answer. I appreciate the 
fact that you understand that we need to be as thorough in 
where we explore and what we ask; and I raise those issues just 
to point out how significant the many hats that you are putting 
on.
    Ms. Bartley. Yes.
    Senator Burr. Both having been advocates, both now sitting 
on the bench with the responsibility of decisions--decisions to 
be made based upon the facts in an impartial way--basically 
discarding your prior work lives, other than the influence for 
the passion of the individuals that you hear from.
    Madam Chairman, thank you. And I also want to thank both of 
you for your willingness to respond to the President's request 
to serve and with the genuine understanding of the importance, 
which I sense from both of you, about serving on the court.
    Thank you.
    Chairman Murray. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you, Chairman Murray.
    General Pietsch, opponents of the Expedited Claims 
Adjudication Initiative suggest that veterans are forfeiting 
their due process rights in an attempt to have their disability 
claims processed in a more timely fashion.
    My question to you is, what are your thoughts on this 
initiative?
    General Pietsch. Thank you, Senator Akaka.
    I think generally speaking an expedite claims procedure has 
its place and can be helpful. However, at the same time, I 
believe that the due process protections need to be there, 
especially when you have a process and a program, shall we say, 
where there may be future claims.
    So definitely, I think that there is a place for expedited 
procedures, but there is also a very important place for due 
process. That should be made available and ensured for each 
claimant.
    Senator Akaka. Thank you.
    Ms. Bartley, pro bono attorneys and non-attorney advocates 
play an important role in providing representation to 
appellants who may otherwise have to navigate through the 
process without representation.
    What are your views on the importance of attorney or 
advocate representation, and what role should the Court play in 
addressing this issue?
    Ms. Bartley. Well, I do believe that at the Veterans Court 
level, if not even before the VA, representation by an 
experienced non-attorney practitioner or by a lawyer, whether 
he or she be pro bono or for a fee, is extremely important.
    Certainly, when I sometimes get cold calls from veterans 
asking about that very question, whether it is important to 
have a lawyer or whether they can go without one, and I would 
certainly always counsel that the VA has lawyers representing 
the Secretary's position and that the veteran needs to have an 
advocate especially as the Court level.
    It also helps the Court out immensely to have an advocate 
representation because then the Court does not have to look for 
the issues on its own and come up with arguments on its own. It 
can merely read well-written briefs, and that is extremely 
important.
    Senator Akaka. Thank you very much.
    To both of you, as we discussed, Veterans Claims judges 
review a high volume of cases and must be able to prioritize 
and delegate certain tasks. Will you please describe each of 
your individual management styles, including the role you 
envision for law clerks in your chambers, for instance, but 
more important your style and how you would handle this?
    General Pietsch.
    General Pietsch. Thank you, sir.
    My management style is one of inclusion. I like to include 
people in my decisionmaking. I like to get all the information 
possible because that is the only way you can make an informed 
decision.
    I would like to lead by example with respect to my law 
clerks. I would want them to feel that they could come to me 
for advice, and I would want them to not be reluctant to come 
and discuss with me perhaps a differing opinion or something 
that might be controversial.
    So, my management style is to be inclusive of everybody.
    Senator Akaka. Thank you.
    Ms. Bartley.
    Ms. Bartley. Thank you, Senator.
    My management style I guess I would call it collaborative. 
It might be called inclusive, participatory. I find that I 
enjoy talking to people about their perspective. It is actually 
difficult for me to make a decision sometimes without talking 
it out either in my own head, you know, presenting each side of 
the issue or preferably with other people.
    I have some former law clerks here in the audience. I hope 
they would back me up when I say that I do like to get opinions 
from other people on what they are thinking.
    Of course, I would be the ultimate decisionmaker but some 
kind of collaboration and participation from them would be 
extremely important. At least, it always has been in the past.
    If confirmed and if I would direct a chambers, I am sure 
that my management style might change somewhat but that is what 
has worked for me in the past.
    Senator Akaka. Thank you very much to each of you. I want 
to wish you well.
    My time has expired.
    Chairman Murray. Thank you very much.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Madam Chairman.
    I should know the answer. I think I do know the answer to 
the question, General Pietsch, but let me ask it. You are the 
last arbiter at the Court of Appeals on a decision, is that not 
correct?
    General Pietsch. The decision--if it is not acceptable, the 
veteran may appeal the case to the Federal Circuit Court.
    Senator Isakson. But you are the last one within the 
veteran system?
    General Pietsch. Yes.
    Senator Isakson. It then goes to civilian courts?
    General Pietsch. Well, actually the Court of Veterans 
Claims is independent from the VA.
    Senator Isakson. But you are at the point where you have 
exercised tremendous influence on the process in terms of 
claims?
    General Pietsch. Yes, including making precedential 
decisions.
    Senator Isakson. I am going to make remarks rather than ask 
questions specifically.
    I really appreciated your answer about expedited process 
while never abdicating the rule of justice and due process to 
the veteran. Sometimes the protracted time actually is to the 
benefit of the veteran. We need to remember that. I thought 
your comment was very balanced.
    I appreciate your advocacy, Ms. Bartley, as far as veterans 
were concerned. You are going to be in a position, if 
confirmed, on the Court of Appeals, to help correct some of the 
things that you referred to in some of those comments that 
Senator Burr made earlier.
    I hope you will take the position to do that in those cases 
where you think it is appropriate.
    Ms. Bartley. Thank you, Senator.
    Yes, I would not hesitate where the law required that.
    Senator Isakson. I think on behalf of the Committee 
expedited process but never abdicating due process is the 
ultimate goal for all of us so our veterans get a response in a 
timely fashion under very difficult circumstances.
    I appreciate both your willingness to serve.
    Thank you, Madam Chairman.
    Chairman Murray. Thank you very much.
    I want to thank both of our nominees for being here today 
and for answering our questions. Most importantly, thank you 
for your desire to serve our Nation's veterans.
    The dysfunction of the claims system, the volume of work at 
the Court and the valuable role that it does play in the lives 
of veterans makes clear the importance of these nominations.
    So, I look forward to working with my Ranking Member Burr 
and my Committee to schedule a markup and move forward with 
these nominations as quickly as possible, and I also will 
continue to press the administration to send us an additional 
nomination for the Court to help address the timeliness 
problems that both the Ranking Member and I talked about this 
morning.
    With that, again thank you to both of you and your families 
and support groups who are here.
    We look forward to moving these as quickly as possible. 
Thank you.
    [Whereupon, at 10:35 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


    [Letter from Helene L. Allen, Honolulu, HI, in support of 
Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    [Letter from Stephen D. Andersson in support of Coral Wong 
Pietsch:]

                       Criminal Justice Operations,
                                     Department of Justice,
                                 Washington, DC, February 10, 2012.

Mr. Matt Lawrence,
Chief Clerk,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Lawrence: I write in support of the nomination of Coral 
Pietsch to the U.S. Court of Appeals for Veterans Claims. I had the 
privilege of working with BG Coral Pietsch during the time I served in 
the Baghdad Provincial Reconstruction Team (PRT) during 2007. During 
that time, I took a sojourn from my longtime career within the United 
States Department of Justice to serve as the Rule of Law Coordinator 
for the PRT's Rule of Law section. The Rule of Law section was 
fortunate to have BG Pietsch assigned to work with us.
    It was an honor to work with BG Pietsch. Rarely does one have the 
opportunity to be professionally associated someone with such a broad 
and rich legal background. BG Pietsch's background includes time in the 
U.S. Army, the Hawaii Attorney General's Office, and the Hawaii Civil 
Rights Commission. Based upon this experience, it was quite 
understandable why she become the first female General officer in the 
Judge Advocate General's Corps as well as the first female Asian-
American General officer in the U.S. Army.
    Within the PRT, BG Pietsch was an amazingly valuable asset. The 
section's responsibilities included working with rule of law 
stakeholders including, but not limited to, Iraqi judges, prosecutors, 
police, private bar attorneys, and bar associations. We traveled out of 
the Baghdad International Zone on a regular basis to meet with these 
stakeholders at their offices, assess their rule of law capacity, and 
develop programs to further their work. Ours was not easy work, but as 
her supervisor, I could always count on BG Pietsch to provide the Rule 
of Law section with helpful and informative reports of her meetings 
with Iraqi stakeholders and insightful suggestions for the way forward. 
It was a pleasure to work with someone possessing such competence and 
ability to execute.
    Having worked in front of trial and appellate judges for over 30 
years, I have a certain understanding and appreciation of 
characteristics essential in good judges. Three of those 
characteristics are intelligence, the ability to write, and a steady 
disposition. Having firsthand observed BG Pietsch's work, I can say 
without question that she possesses all three of these characteristics. 
BG Pietsch's excellent work is made possible, in part, by her sharp 
legal mind, her ability to communicate, and her ability to get along 
with others. These are traits that have served her well throughout her 
legal career, and would serve her, the U.S. Court of Appeals for 
Veterans Claims, and the United States well should she be confirmed.
    I could go on, but I am confident that you will hear from many 
others in even greater detail in support of BG Pietsch's nomination. BG 
Pietsch has dedicated a lifetime of service both to her state and the 
United States. I am confident that the abilities and characteristics I 
saw her demonstrate in Baghdad would make her an outstanding jurist, 
and I respectfully recommend her confirmation.
    I would be happy to respond to any other questions the Committee 
may have.
            Respectfully yours,
                                      Stephen D. Andersson,
                                                          Director.
    [Letter from Sara K'imipono Banks, Jr., Specialist and 
Videographer, University of Hawaii at Manoa, in support of 
Coral Wong Pietsch:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Letter from LTG Scott C. Black, U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

                                     Rockville, MD, March 19, 2012.
Hon. Patty Murray,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Madam Chairman, I am writing in support of Ms. Coral Wong 
Pietsch's appointment to serve as a Judge on the U.S. Court of Appeals 
for Veterans Claims.
    I retired from the United States Army in late 2009, after 35 years 
of active duty service. In my final tour, I served as The Judge 
Advocate General of the United States Army (Lieutenant General), and 
was stationed in the Pentagon. I am now employed as a Vice President & 
General Manager with BAE Systems, Inc. in Rockville, Maryland.
    I have known Ms. Pietsch for over ten years, as a result of our 
service together in the Army's Judge Advocate General's Corps. Over the 
years, I have been fortunate to have the opportunity to interact with 
Coral in professional and social settings, and to assess her character, 
intellect, and legal abilities. In short, she is an impressive 
individual in every respect, and an absolutely superb candidate for 
service as a Judge on the Court of Appeals for Veterans Claims.
    In my last position as the Army Judge Advocate General, I managed a 
legal organization of over 9,500 lawyers, paralegals, and support 
staff, stationed in over 650 offices in 19 countries. I selected and 
supervised trial and appellate level judges, as well as attorneys who 
practice and supervise the delivery of trial and appellate legal 
services around the Army. As such, I am fairly familiar with the 
attributes necessary to succeed in positions of significant 
responsibility in the judicial arena.
    Coral Pietsch has everything you could hope to find in your very 
best candidate for selection for this position. She is extremely 
intelligent, technically proficient, a superb communicator, and a 
natural leader who possesses the balanced temperament one would expect 
to find in the finest member of the judiciary. Her resume is replete 
with challenges met and conquered; she is energetic, dependable, and 
extraordinarily hard working. Coral is literally brimming with 
enthusiasm for life and committed to the pursuit of excellence in 
everything she undertakes.
    I know from my contacts with Coral and others that she is well 
prepared for service as an Appellate Judge. In particular, she brings a 
wealth of long-term experience and success as an active duty and 
Reserve Soldier, experience that is further enhanced by her deployment 
to Iraq in support of Rule of Law Operations, and her continuing 
service as a senior civilian attorney on the staff of U.S. Army 
Pacific. Moreover, she would bring to the Appellate bench a plethora of 
other related professional affiliations that will give her a level of 
experience and understanding that would be very difficult to match.
    In sum, Coral Pietsch is aggressive, sharp, confident, and 
dedicated to service to the legal profession and the citizens of our 
country who rely on the protections afforded by our system of laws. She 
has the personality, intellect, background, analytical skills, and 
capability to instinctively understand and respond to the ``greater 
good,'' without ever losing sight of the small details. I simply cannot 
think of enough words to adequately capture her qualities or potential 
for service at the highest levels of responsibility. She has my 
strongest recommendation for selection.
    If you have questions, I would be pleased to assist, and can be 
reached by phone at (301) 838-6820.
            Respectfully,
                                            Scott C. Black,
                              Lieutenant General, U.S. Army (Ret.).
    [Letter from GEN David A. Bramlett, U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

                                                 February 19, 2012.
Hon. Patty Murray, Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Murray: I have known Coral Pietsch for over 25 years 
and have worked with her on several occasions. I have sought her 
counsel on environmental matters, operational concerns, and during many 
other times when I needed thoughtful input and balanced perspective. 
Her skills and abilities transcend the legal profession and encompass a 
greater understanding of human nature and a profound appreciation for 
doing what is right.
    She is a lawyer of surpassing humanity and unerring judgment. I 
profoundly share the President's confidence in his nominating her for 
this most important position. With her confirmation, the nation will be 
assured of a Judge who understands veterans, their myriad of 
challenges, and the complexities of honoring our commitments to 
veterans consistent with circumstances and regulatory guidance.
    Her considerable experience in the Army, to include her operational 
and administrative work; her efforts with the Hawaii Civil Rights 
Commission; and her stint as the State's Deputy Attorney General 
reflect her extraordinary background and preparation.
    Without a doubt, her Army experience of decades of dedicated 
service is the pre-eminent qualification. She has seen and assimilated 
the ethos, the sacrifice, and distinguishing nature of military 
service. This qualification will validate her presence in the Appeals 
process and will reassure the veteran that his/her claim will be heard 
by one who understands.
    I ask the Senate to confirm this outstanding American, Coral 
Pietsch, for the position of Judge on the U.S. Court of Appeals for 
Veterans Claims.
            Sincerely,
                                         David A. Bramlett,
                                           General, US Army (Ret.).
    [Letter from Brian X. Bush, Chief, Environmental and Labor 
Law, U.S. Air Force Academy; COL, U.S. Army JAG Corps (Ret.), 
in support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from Rai Saint Chu, Attorney, in support of Coral 
Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from COL James M. Coyne, U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from BG Raymond Gandy, Jr., U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from Allen K. Hoe, Attorney at Law, in support of 
Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from LTC Arthurine Jones, U.S. Army, Civil Affairs, 
in support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from COL Thomas R. Keller, U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from Edward H. Kubo, Jr., Circuit Court Judge, 
First Circuit, State of Hawaii, in support of Coral Wong 
Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from COL Mark David Maxwell, U.S. Army, in support 
of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of Andy Passen, Transition Director, American 
                      Embassy, Kabul, Afghanistan

    Greetings from Kabul, Afghanistan, where I am serving as Transition 
Director at the American Embassy here. I am writing to offer my strong 
support for General (ret) Coral Pietsch, who was recently nominated by 
President Obama to serve as Judge of the U.S. Court of Appeal for 
Veterans Claims. Coral let me know that the Senate Committee on 
Veterans Affairs would consider written statements in support of her 
nomination. Considering where I am serving, I hope you will forgive me 
the informal nature of this submission.
    This is my second hardship/danger post in the past four years. From 
July 2007 to July 2008, I was the Team Leader of the Baghdad Provincial 
Reconstruction Team (PRT), the largest PRT in either Iraq or 
Afghanistan. During my time as the head of the Baghdad PRT, I came to 
know General Coral Pietsch, who was serving as the Deputy Rule of Law 
Coordinator. In this position she interacted with the Embassy, senior 
leaders in the Multi National Force--Iraq, key members of the Iraqi 
legal community and the Iraqi judiciary, and various Non-Governmental 
Organizations on a regular and continuing basis to further the Rule of 
Law programs that she and her colleagues were implementing under my 
direction. Coral and I worked closely together coordinating these 
innovative, high-profile, and very effective projects among the 
numerous agencies--Iraqi national, provincial, and municipal bodies, 
international partners, and military units--working with our PRT.
    Coral impressed me with her extremely thoughtful, reflective style 
of engaging with all interlocutors. She earned a well-deserved 
reputation as a leader who looked at all perspectives prior to making a 
decision--and in the Iraqi war-time environment, with so many civilian 
offices and military units contributing to our PRT efforts, this was an 
especially important skill. Coral is sensitive yet objective; she is 
extremely thorough and makes sure all opinions are considered. In her 
leadership position, she guided her staff with sensitivity, and 
collaborated extremely well with other elements of our large PRT. Coral 
impressed me with her cultural sensitivities as well; she quickly 
grasped the interpersonal, cultural, and societal nuances of work in 
Iraq, and was careful not to impose ideas on others. An effective team 
player, Coral exhibited calmness and considerable poise during this 
year-long period of considerable danger (and the concomitant high 
stress) when the International Zone was experiencing incessant rocket 
and mortar attacks that affected the PRT staff's ability to discharge 
our duties.
    Demonstrating great personal initiative, Coral developed a number 
of outstanding proposals that enhanced the Iraqi legal community's 
professional and human resources capacity to reinvigorate their 
profession. Examples included a legal clinic for detainees in Iraqi-
operated detention facilities, updated legal resources for the Iraqi 
law schools, and infrastructure improvements for the Iraqi Bar and 
Judiciary. Ambassador Ryan Crocker once commented that her work on the 
legal aid clinic for Iraqi detainees was one of the best examples of 
Department of State and military cooperation in Iraq.
    In short, General Coral Pietsch was a congenial and highly 
effective member of the Baghdad PRT during a year of intense danger and 
great opportunity. Based on my close collaboration with General 
Pietsch, I have complete confidence that she will make an excellent 
Judge on the US Court of Appeals for Veterans Claims and will continue 
to reflect great credit on the U.S. Military and on our judiciary. I 
add my voice of support to her nomination, and hope that the Senate 
Committee will favorably consider her nomination.

    With warm regards from Kabul.
                                ------                                

    [Letter from COL Randy Pullen, U.S. Army (Ret.), in support 
of Coral Wong Pietsch:]

                                    Alexandria, VA, March 15, 2012.
Hon. Patty Murray, Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Murray: I am delighted to write to you about 
Brigadier General (Retired) Coral Wong Pietsch, to strongly support 
confirming her nomination as Judge on the U.S. Court of Appeals for 
Veterans Claims. I have been privileged to know Coral since 1995 when 
we both served together at Headquarters, U.S. Army Pacific (USARPAC), 
in Hawaii. We have been professional colleagues and close friends. I 
have the highest regard for her as an attorney, a jurist, a soldier and 
a person.
    When I met Coral, she was then the Senior Civilian Attorney in the 
USARPAC Staff Judge Advocate office and an Army Reserve Judge Advocate 
General officer in the 9th Army Reserve Command. As the Assistant 
Public Affairs Officer for USARPAC and a full-time Army Reserve 
officer, I got to know her well in both roles. I soon began to rely on 
her as an essential resource to assist in both legal and Reserve 
matters affecting our entire Pacific-wide area of responsibility.
    I also got to see her in action outside the headquarters, again in 
both her civilian and military capacities. We both deployed to the 
Philippines in 1995 for Balikatan 1995, a major exercise between the 
Armed Forces of the United States and the Philippines. Then-Colonel 
Pietsch was the senior legal officer for the combined American-Filipino 
force. Her exercise duties were suddenly expanded to deal with a number 
of additional legal issues that arose when a super typhoon swept 
through the exercise area on Luzon. She handled this real-world 
challenge as expertly as she did the exercise. More than that, however, 
I observed her concern for the wellbeing and safety of our soldiers in 
the aftermath of the typhoon, checking to be sure they were personally 
OK and that their damaged property claims were dealt with swiftly.
    I also observed her deploying as a civilian attorney for USARPAC on 
incident exercises to remote Johnston Atoll. Both the command and the 
deploying troops could always count on getting the best legal advice 
from her on these.
    Coral's reputation as a lawyer and a soldier was such that in 1996, 
she was called to active duty to serve for six months as the active 
duty USARPAC Staff Judge Advocate, the top lawyer for the Army's 
Pacific Command. In the pre-9/11 Army, it was much less common for 
Reserve officers to be given such key active duty assignments. Coral's 
selection at this time demonstrates what an outstanding Judge Advocate 
General Corps officer she was.
    After I was reassigned to the Office of the Chief of the Army 
Reserve in Washington, DC, in 1998, I continued to stay in touch with 
Coral. In 2001, our paths crossed professionally again when she was 
selected for promotion to brigadier general. Naturally, I was very 
pleased my friend had been chosen for promotion but this was also a 
proud moment for the Army and especially the Army Reserve. Coral's 
selection--and subsequent promotion after Senate confirmation--made her 
both the first woman Asian Pacific American general and the first woman 
Judge Advocate General Corps general in the history of the U.S. Army. 
This was a major achievement for both the Army and the Army Reserve and 
I was delighted that I could do much of the public affairs work to 
publicize her accomplishment. I have included with this letter one of 
the many articles I wrote about her, one that was published by the 
Department of Defense's American Forces Press Service.
    In the years since, we have continued to be good friends and I have 
followed her career closely. Her volunteering to deploy to Iraq as the 
Deputy Rule of Law Coordinator for the Department of State's Baghdad 
Provincial Reconstruction Team from 2007 to 2008 came as no surprise to 
me. It was just one more example of Coral finding a new avenue to share 
her incredible knowledge with others--as well as a way to help a new 
group of people.
    I have complete confidence in Coral taking up her new 
responsibilities in exactly the same manner she has tackled every other 
thing she has done in her life, with determination, with compassion, 
with skill and with the desire to do what is right, for the country and 
for those who serve our country. I am convinced that the government and 
those who come before her court will have their interests equally 
respected by her.
    Coral's life experiences make her an ideal choice for the position 
for which she has been nominated. As someone who had risen to the 
heights of the legal profession in both the civilian and military 
service, she knows and appreciates the perspective of the government. 
But in rising to those heights, she knows the perspective of the 
underdog, of those who have to fight to get ahead, of those who may not 
always expect to get justice but keep striving for it anyway. She knows 
that viewpoint because she has lived it.
    I can think of no better person to serve on the Federal bench, 
particularly the U.S. Court of Appeals for Veterans Claims, than one 
who has had the life story of Coral Wong Pietsch.
            Respectfully,
                                               Randy Pullen
Attachment: News Article
                                 ______
                                 
                 news article: waterloo to washington: 
                 the long journey of coral wong pietsch

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from Gregory Shogren, Assistant U.S. Attorney, U.S. 
Department of Justice, in support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Melvin K. Soong, Colonel, JAG, U.S. Army Reserves 
(Ret.), Circuit Court Judge, First Circuit, State of Hawaii (Ret.), in 
                Support of Coral Wong Pietsch, BG (Ret.)

    Chairman Murray and Members of Senate Committee on Veteran's 
Affairs: I write to urge your support in confirming Coral Wong Pietsch 
as a Judge of the United States Court of Appeals for Veteran's Claims.
    I first met Coral when she and her husband Jim joined the Judge 
Advocate General's section HQ IX Corps(Aug), a section I was in command 
of here in Honolulu in the early 1980's. The HQ was the unit in charge 
of all Army reserve units in Hawaii, Guam, American Samoa, and the 
Marianna Islands. I found Coral to be calm, observant, resourceful, 
competent, and complete in her work. She has that ability to convey to 
the parties in a conflict that their position has been heard and 
considered, and that a fair decision will be reached.
    Coral has achieved many ``firsts'' and other accomplishments in her 
continuing career. I know such information has been made available to 
you and I need not elaborate. But I would like to mention that her 
reputation here in Hawaii is excellent. She is very highly regarded in 
the legal community, the community itself, and the military community. 
Her volunteering to serve a year in Iraq was truly patriotic and at 
great sacrifice to her.
    May I respectfully urge your confirmation of Coral for the Judge's 
position.

    Thank you.
    [Letter from COL Terry E. Thomason, U.S. Army (Ret.), in 
support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


  Prepared Statement of Les Ueoka, Commissioner, Hawaii Civil Rights 
            Commission; and Bill Hoshijo, Executive Director
    Dear Chair Murray, Ranking Member Burr, and Members of the 
Committee: I write in strong support of the nomination of Coral Wong 
Pietsch to serve as a judge on the U.S. Court of Appeals for Veterans 
Claims. I have known General Pietsch since 2005, when I was appointed 
to serve as a commissioner on the Hawaii Civil Rights Commission, of 
which she served as chair. Over the next seven years until her 
retirement from the Commission in 2012, I had the good fortune and 
privilege of working closely with General Pietsch. She is a tireless 
public servant whose greatest attribute, in my opinion, is that she 
leads by example.
    General Pietsch has qualities that will serve her well as a judge. 
First and foremost, General Pietsch is principled, honest and fair. She 
listens to all points of view and treats everyone with courtesy and 
respect. Even when the Commissioners disagreed on an issue, her 
leadership kept us from being disagreeable. Second, General Pietsch's 
record of public service speaks volumes. I am certain that she will 
provide details of her service, so I will simply point out the 
highlights, including her pioneering career in the U.S. Army, her 
chairing the Hawaii Civil Rights Commission, and her volunteering to 
serve in Iraq while on the Commission to help build and establish its 
judicial and legal system. Finally, General Pietsch is devoted to the 
law and justice. In every endeavor, she demonstrates a respect for the 
law that is uncompromising and a focus on justice that remains 
unwavering.
    General Pietsch will be a great judge, and I support her without 
any reservation.

    Thank you for this opportunity to submit written testimony.
    [Letter from Arthur Wellman, Attorney, Col., JA, U.S. Army 
(Ret.), in support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Letter from Lisa Wong, Manager, Human Resources, Training, 
Health and Safety, Hawaiian and Cultural Programs, Hawaii 
Convention Center, in support of Coral Wong Pietsch:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



NOMINATION OF THOMAS SKERIK SOWERS II, PH.D., TO BE ASSISTANT SECRETARY 
 OF PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF VETERANS 
                                AFFAIRS

                              ----------                              


                        WEDNESDAY, JULY 18, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Webb, Begich, Burr, and Boozman.

       OPENING STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning. The Committee will come to 
order.
    Welcome to today's hearing to consider the nomination of 
Dr. Tommy Sowers to be Assistant Secretary of Public and 
Intergovernmental Affairs for the Department of Veterans 
Affairs. I am very pleased to welcome Dr. Sowers and his 
apparently numerous family members who are with him today.
    And, I also wanted to just take a second and recognize a 
former colleague, Senator Max Cleland. Dear friend, it is 
wonderful to see you here today as well.
    In a moment, we are going to hear all about the nominee's 
qualifications. He will be introduced by Senator McCaskill. She 
will be arriving shortly, and before she comes I am going to 
spend a minute talking about the office he has been nominated 
to lead and the issues, if confirmed. As the second-largest 
department in the Federal Government, VA's outreach extensive.
    The Department of Veterans Affairs serves more than eight 
million veterans' health care needs every year, delivers 
compensation and pension benefits to more than four million 
Americans and veterans, provides life insurance to 
approximately seven million active-duty members and veterans, 
provides burial honors for nearly 120,000 veterans and eligible 
family members, and delivers more than 10 billion dollars' 
worth of education assistance every year.
    Dr. Sowers, you have been nominated to lead an office that 
is charged with providing veterans and their families with the 
latest information on all of the services, benefits, and 
programs that VA offers for an organization that, as the 
Secretary often says, is the equivalent of a Fortune 15 
company.
    If confirmed as the Assistant Secretary of Public and 
Intergovernmental Affairs, you will play a key role in meeting 
the President's challenge of transforming VA.
    One of the key responsibilities of this position is to 
oversee the Department's outreach efforts. In recent years, the 
Department has increased its efforts to transform from a 
reactive to a proactive organization by creating an Outreach 
Office to make more veterans aware of their benefits. It has 
also increasingly focused on new social media, like Facebook 
and Twitter.
    However, with nearly 50 percent of eligible Iraq and 
Afghanistan veterans still not using VA health care, the 
Department clearly has more work to do if it is going to expand 
its reach to more veterans, regardless of where they live or 
how they access information.
    As Assistant Secretary of Public and Intergovernmental 
Affairs, you will be called upon to publicly respond to 
incidents, both good and bad, that will have a direct impact on 
the level of trust veterans place in the VA.
    Members of this Committee have seen all too often how 
isolated incidents at local VA facilities, and the failure to 
respond with sufficient information in response to those 
incidents, have negatively impacted the perception of VA as a 
whole.
    In addition to serving as a spokesman for VA, you will also 
have responsibility for overseeing the Department's 
relationships with the rest of the Federal Government, 
including the Department of Defense, as well as with State and 
local governments. These relationships are critical to the 
Department's ability to deliver the highest quality care and 
benefits to this country's veterans and cut across issues 
ranging from homelessness and housing issues to small business 
and seamless transition issues.
    This is an important position and one whose impact will be 
felt by veterans of all generations in this country.
    So, I look forward to hearing your testimony and learning 
about your plans, if confirmed.
    I believe the Ranking Member is on his way. But awaiting 
his arrival, Senator McCaskill has arrived, and we want to give 
her the opportunity--the Ranking Member has arrived if you do 
not mind, Senator, I am going to proceed with Senator McCaskill 
and then we will go to your opening statement.
    Senator McCaskill, thank you so much for coming today and 
introducing someone you know well.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Madam Chairman, and I also 
want to thank Senator Burr for being here.
    You have an extraordinary Missourian in front of you today. 
This is a special man, and I say that not because he was raised 
in Rolla, Missouri, which actually is the town I was born in 
because my parents lived in Houston where there was not a 
hospital. So, my mom and dad had to drive to Rolla for my 
birth.
    His grandfather was the editor of the local paper in Rolla 
and he took his lessons that he learned growing up in rural 
Missouri and completed the ROTC program while he was at Duke.
    In the Army, Tommy had an amazing career. He commanded a 
combat engineer platoon in Kosovo. He excelled in the U.S. Army 
Special Forces qualification course, graduating first in his 
class.
    As a Green Beret, he served two tours in Iraq and went on 
to teach the next generation as a professor at West Point. He 
was decorated for his service, including two bronze stars.
    He understands, I think this is really important, he 
understands today's veteran. I think that sometimes we forget 
because maybe I am guilty of this because my dad fought in 
World War II and so many of the veterans that my office 
interacts with are of the Vietnam era. They are of maybe the 
Korean War, still many of them from World War II.
    I think we forget that today's Veterans Administration 
really needs to have someone in the highest levels of the 
Administration that understands today's veteran.
    Obviously, Dr. Tommy Sowers brings that to this job. He 
understands the work that lies ahead. He understands 
government. He actually has taught government at a university 
in Missouri.
    But, most importantly he has really got great people 
skills; and for this job, you know, it is called Public and 
Intergovernmental Affairs, I think we all know that that means 
you have got to not only be able to communicate well to the 
public and communicate to veterans about what the Veterans 
Administration can do for them, but he also has to interact 
with the rest of government.
    And that takes someone who understands not just how to be a 
leader but also how to be a team player, and you do not get 
your way in the Federal Government by being hard to get along 
with. You get your way in the Federal Government by listening 
and working with others, but also being driven by a passion. 
Dr. Tommy Sowers has that passion.
    He has an extraordinary intellect. He has an amazing resume 
in terms of his actual experience, and I am so proud that this 
Administration saw fit to nominate him. I think he may be one 
of the finest leaders that the Veterans Administration will 
ever have, and I cannot recommend him to this Committee, the 
U.S. Senate, or the American people more highly.
    Thank you, Madam Chairman.
    Chairman Murray. Thank you very much, Senator McCaskill. 
Thank you very much for your very compelling statement. We 
really appreciate that.
    With that, I am going to turn to my Ranking Member, Senator 
Burr, for his opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Madam Chairman, thank you. I apologize for my 
tardiness and thank you to my colleague for a gracious 
introduction.
    Dr. Sowers, welcome to you and more importantly to your 
family and friends who are here.
    I find it a little bit odd to have a Duke graduate that had 
military service, ROTC at Duke, you are too smart I thought to 
do that. [Laughter.]
    The fact is that I am grateful to you. Duke is a tremendous 
school. I am a Wake Forest graduate. So, we have learned over 
the years to put up with Duke graduates. [Laughter.]
    Thank you for your service to our country's military, for 
all of the individuals that commit to serve. This is a Nation 
that will always be grateful for that service, and I think the 
nomination that the White House has made is a continuation of 
that service in a different fashion.
    To start with, the office that you have been nominated for 
is responsible for assessing and coordinating outreach 
activities that VA carries out agencywide.
    Over the years, VA has had many different methods to inform 
veterans and other stakeholders about VA benefits, services, 
and activities. But, until recently, little was known about the 
cost or outcomes of those outreach efforts. Although VA now 
tracks how much is spent, there is still work to be done to 
fully understand which outreach methods work the best and to 
gauge the overall effectiveness of VA's outreach efforts.
    In other words, let us make sure that we are getting as 
much bang for our buck, that those outreach efforts are 
reaching the people that we are trying to reach.
    The Office of Public and Intergovernmental Affairs also 
oversees sports programs and special events for veterans with 
disabilities, including VA's Paralympic Program. That program 
is meant to expand the opportunities for veterans with 
disabilities to participate in adaptive sports, by providing 
grants to organizations that sponsor these activities around 
the country.
    To fulfill that purpose, VA must ensure that as much of 
that funding as possible is directly benefiting disabled 
veterans who want to participate in these activities.
    Madam Chairman, before I turn it back to you, I want to 
mention one other role of this office, which is to assist in 
VA's initiative to reduce the number of homeless veterans.
    In recent years, there has been a large increase in the 
funding for homeless programs but there are questions about 
what results are being achieved and whether certain segments of 
the veteran population, including women veterans, are being 
well served.
    Moving forward, VA must ensure that these resources are 
being used as effectively to help struggling veterans reach 
positive outcomes as we can possibly do.
    And, I lay that out to you, Dr. Sowers, as just a few areas 
that would require your incredible attention on your part, if 
you are confirmed for this.
    I look forward to discussing with you how you carry out 
these duties and, more importantly, how you would ensure that 
the efforts of the office are leading to real improvements for 
veterans, their families, and their survivors.
    I thank you. I thank the Chair.
    Chairman Murray. That you very much, Senator Burr.
    Dr. Sowers, thank you, first of all, for your service to 
our country and now your willingness to serve your fellow 
veterans in this new capacity. I know all of us are looking 
forward to your testimony, but I know you also have a number of 
people in the audience today, and I would like you to go ahead 
and take a moment to introduce them to us.
    Mr. Sowers. Chairman Murray, Ranking Member Burr, first 
off, thank you very much for the opportunity to come here 
today. I know Senator McCaskill just took off but those were 
very kind words, and she has been a great friend and a 
supporter not just to me but to veterans.
    Behind every veteran stands their family and their friends 
and their comrades and a lot of them have showed up today.
    First and foremost, I would like to recognize my wife 
Ericka. She is the daughter of a veteran, and she tolerates me 
on a day-to-day basis.
    My parents are sitting right behind me, Tom and Chris 
Sowers. They drove out here from Missouri, and my father served 
in the Army Reserves and the National Guard and my mom is a 
true Army brat, the daughter of a World War II paratrooper, 
Korea, Vietnam, and at one point had two brothers in Vietnam. 
Like so many other parents out there, they prayed and hoped for 
my return on my three deployments.
    They are joined today by two of my sisters and two of my 
four nephews. Bo and Mac Wallace from Greenville, South 
Carolina. As promised, boys, your names are now in the official 
Congressional record. [Laughter.]
    In Ranger training, I learned to never leave my battle 
buddy, and true to that, many of the folks that I served with 
are here today.
    Major Kecia McGriff and Jeremy Gray were there on my first 
day in uniform in Durham, NC, and they watched me learn how to 
lead.
    Major Rob Hudson and Ed King I also met in North Carolina, 
down in Fayetteville, during Special Forces training. They know 
that I do not quit.
    Two other currently serving officers, Major Fernando Lujan 
and Major Paul Patterson were there at the end of my career as 
a professor at West Point; and finally, I have got to recognize 
Chief Kevin Wells. Chief was my Deputy Detachment Commander on 
my ODA in Special Forces. I have not seen him for 5 years. He 
exemplifies what a quiet professional is and also the type of 
bond that you form in combat.
    For all of those veterans that are currently serving or 
have served, thank you very much.
    Chairman Murray. All right. Under the rules of this 
Committee, the testimony of all of our Presidential nominees 
appearing before the Committee have to be taken under oath.
    So, Dr. Sowers, will you now stand while I administer the 
oath.
    Do you solemnly swear or affirm that the testimony that you 
are about to give before the Senate Committee on Veterans' 
Affairs will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    Mr. Sowers. I do.
    Chairman Murray. Very good. With that, Dr. Sowers, you can 
begin with your opening statement.

  STATEMENT OF THOMAS SKERIK SOWERS II, Ph.D., NOMINEE TO BE 
 ASSISTANT SECRETARY OF PUBLIC AND INTERGOVERNMENTAL AFFAIRS, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Sowers. Chairman Murray, Ranking Member Burr, I am 
truly honored to come before you today as the nominee for 
Assistant Secretary for Public and Intergovernmental Affairs at 
the VA. I would like to express my deep gratitude to President 
Obama and Secretary Shinseki for their nomination and their 
confidence in my ability.
    Over the past few days, I had an opportunity to sit down 
with you and members of your staffs, to listen to you, to 
understand your priorities and concerns. I appreciate the 
opportunity now to answer your questions and gain further 
insight from you on how, if confirmed, I should approach this 
opportunity.
    But, I must begin simply by thanking the Committee, and 
this is a very personal thank you. As you may know, I am a 
recipient and a beneficiary of the new GI Bill. Just last 
Thursday was my Ph.D. graduation ceremony, a program which 
would not have existed under the old GI Bill. It took your 
alls' leadership to make it happen. This label would not read 
Dr. Tommy Sowers without you.
    I am just one of hundreds of thousands of veterans out 
there who have had their lives transformed. They will continue 
on. They will build businesses. They will pay taxes. You have 
invested in them, so thank you very much.
    My story is similar to the story of many veterans. My time 
in the service made me strong. My time at war made me stronger 
and the VA has helped me heal and made me better.
    My 11 years in the Army made me strong. In the woods, 
swamps, and mountains of your States, my ability to lead was 
tested. I pushed tired legs up Donnelly Dome in Alaska, led 
troops over optical courses at Fort Lewis, WA, and have done 
quite a bit of business in North Carolina.
    The military instilled in me the duty, honor, teamwork, 
discipline, these bedrock values that made me strong. My three 
redeployments made me stronger. During a tour in Kosovo and two 
tours in Iraq, I found what many veterans find, a true test of 
my leadership, of my faith, and of my values.
    In that trial, I also formed a bond of respect with all 
those that stepped forward when their country called. And, once 
I hung up my uniform, VA has made me better.
    The veterans' programs championed by you, passed by 
Congress, and executed by the Department of Veterans Affairs 
have improved my health and my future.
    Three years ago, as I transitioned from soldier to veteran, 
I went through the claims process and now receive my health 
care through the VA. I have experienced world-class care at the 
VA by highly competent professionals.
    At my last physical, my physician, Dr. Denise Davis, I 
asked her why she left private practice to come work at the VA. 
She said, ``It is absolutely simple. We have the best patients 
in the world, and I get to take care of you for life.'' I like 
having a physician that is looking at me for the long haul.
    A decade ago I benefited from the VA's home loan program 
that allowed me to achieve the dream of home ownership; and as 
I said, I personally know the incredible benefits of the new GI 
Bill.
    Members of the Committee, if you want to know what drives 
me, what makes me tick, it is very simple. Now that the 
military and the VA has given so much to me, if confirmed, I 
intend to give back.
    I realize that many veterans have lived a different story, 
veterans who did not know their benefits and others whose 
experience has been far less positive than mine.
    I do not come to you today with a list of easy policy 
solutions and quick fixes to the tough problems that our 
veterans face but I do come to you with this pledge. If 
confirmed, my mission will be to fight every day on behalf of 
veterans and their families so that they receive the benefits 
that I have received for their health, their education, and 
their future.
    This fight is not a skirmish. I know Secretary Shinseki and 
his team are working day in and day out. It is a long fight, a 
fight that dedicated employees of the VA have undertaken for 
many years. I also know that the VA does not fight this fight 
alone.
    With this positions' intergovernmental role, if confirmed, 
I look forward to working together with other State, local, and 
Federal agencies and each of you to help promote a unified 
effort.
    Further, I understand the importance of fully engaging and 
partnering with veteran service organizations, advocacy 
organizations, the media, for-profits and non-profits. All are 
critical allies needed in this fight; and if confirmed, I 
pledge to work together with them and with you.
    For our cause, the cause of improving the lives of veterans 
and their families, is just, it is shared, and it is urgent, 
And for this cause, if confirmed, it would truly be an honor to 
serve my fellow veterans and my country again.
    Thank you. God bless your work, our veterans, and our 
country, and I look forward to answering your questions.
    [The prepared statement of Mr. Sowers follows:]

  Prepared Statement of Thomas Skerik Sowers II, Ph.D., Nominee to be 
        Assistant Secretary of Veterans Affairs for Public and 
     Intergovernmental Affairs, U.S. Department of Veterans Affairs

    Chairman Murray, Ranking Member Burr, and Distinguished Members of 
the Committee, it is an honor to come before you today as President 
Obama's nominee to serve as the Assistant Secretary for Public and 
Intergovernmental Affairs at the Department of Veterans Affairs. It is 
with deep humility and gratitude to President Obama and Secretary 
Shinseki for their confidence in my ability to fulfill the 
responsibilities of this office.
    Senator McCaskill, thank you for your kind introduction. You have 
been a great mentor and friend to me, and a strong supporter of 
veterans.
    I would like to first introduce my wife, Ericka. Thank you so much 
for being by my side, today and always.
    I would also like to recognize my parents, Tom and Chris Sowers. My 
father was in the National Guard and my mom, a true Army brat, at one 
point had her father and two brothers serving in Vietnam. The example 
set by both my father and my wife's father taught me what service to 
one's country means; and what it is to take part in something bigger 
than one's self. And it was my family that, in turn, supported me 
during my three deployments.
    We can never forget all of the parents, like mine, who have spent 
countless nights lying awake and hoping with all their strength that 
their loved ones can come home safely; and soon. Every person who has 
served in war understands the importance of family and home. We owe our 
parents a debt of gratitude that can never be fully paid--Mom, Dad; I 
am so honored that you could be here today. Thank you.
    My parents drove here from my home state of Missouri, bringing with 
them two of my nephews, Bo and Mac Wallace. Thanks for being here boys; 
as promised you are now in the official Congressional Record.
    Next, some of my fellow brothers and sisters in arms are here. 
Fernando Lujan and Paul Patterson, thanks for your service and for 
standing with me today. I am proud and grateful to have had the 
privilege to serve with you in uniform.
    Over the past few days, I've had the privilege to meet with Members 
of the Committee and your staff, to listen and understand your ideas, 
priorities and insights. And I appreciate the chance now to explain a 
bit about my background, and to let you get a sense of how, if 
confirmed, I would approach this opportunity.
    I would like to begin by thanking the Committee for its service to 
the veterans' community. This is a very personal thank you. Last 
Thursday was my official graduation ceremony for my Ph.D.--a degree 
made possible only through the new GI Bill. I am one of the thousands 
of veterans whose life has been improved because of your legislation.
    My 11 years in the military presented many challenges that helped 
me grow strong in mind and body. From hiking up Donnelly Dome in 
Alaska, to leading squads over obstacle courses at Fort Lewis, 
Washington; to Ranger training in Dahlonega and Fort Benning, Georgia, 
to Special Forces training in North Carolina's Pineland, to night 
parachuting into Fort Lee, Virginia, my military training forged in me 
the values, leadership and qualities of our military.
    I also quickly learned that the strength I had gained from those 
challenges would be tested--in ways that I could never have imagined. 
Through a peacekeeping deployment to Kosovo and two combat deployments 
to Iraq, I faced challenges that all Veterans encounter--I was able to 
put to use what the Army had taught me about leadership, integrity and 
inner-strength. And this was no simple test. I learned that decisions 
have consequences. And that my fellow soldiers depended upon me, 
sometimes with their lives.
    Upon coming home, I learned that VA was there for me. As a service-
connected disabled veteran, I have been through the claims process and 
receive my health care through VA. I've experienced world class care, 
by highly competent professionals. At my last physical, I asked my 
doctor, Denise Davis, why she left private practice to work at VA. She 
said it was easy--we have the best patients, and she gets to care for 
me for life.
    In addition to taking care of my body, VA has helped take care of 
my family as well. A decade ago, I was able to realize the dream of 
home ownership through VA's home loan program. And more recently, I 
have benefited from the new GI Bill, allowing me to achieve my dream of 
an advanced degree.
    VA has given so much to me, and I intend to give back. This is why 
I am excited at the opportunity to serve, if confirmed, in the role of 
Assistant Secretary for Public and Intergovernmental Affairs. You have 
my commitment that I will advocate every day to ensure more veterans 
both understand and take advantage of the benefits they have earned--
for their health, their education and their future.
    I realize there are many organizations already joined in this 
effort to assist the Nation's veterans. I am thrilled about the 
intergovernmental aspect of this position and, if confirmed, I look 
forward to working together with other state, local and Federal 
agencies to help promote a unified effort. Further, I understand that 
fully engaging and coordinating with Veterans Service Organizations, 
the media, and others in the private sector will be critical allies 
needed to accomplish our common goals. Together, we must ensure our 
veterans are not forgotten even after our wartime deployments end.
    I would like to thank the Committee, President Obama and Secretary 
Shinseki for providing me with this opportunity to serve my country 
again. I look forward to answering your questions.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Patty Murray to 
 Tommy Sowers II, Ph.D., Nominee to be Assistant Secretary for Public 
   and Intergovernmental Affairs, U.S. Department of Veterans Affairs

    Question 1. Have you discussed with Secretary Shinseki, and with 
Deputy Secretary Gould, the duties and the role you would assume as 
Assistant Secretary for Public and Intergovernmental Affairs if you are 
confirmed? If so, what specific areas of the job were discussed?
    Response. I have discussed with Deputy Secretary Gould the duties 
and role I would assume, if confirmed as Assistant Secretary for Public 
and Intergovernmental Affairs. If confirmed, my primary area of focus 
will be to represent and communicate the programs and plans of the 
Department to internal and external stakeholders. As a service-
connected disabled veteran I will work every day to ensure my fellow 
veterans know and understand how to access their benefits.

    Question 2. Do you anticipate having a policymaking role if you are 
confirmed?
    Response. If confirmed, central to my role will be to assist and 
advise the Secretary of Veterans Affairs on all aspects of media and 
public affairs. As part of that responsibility, I anticipate having an 
active role in developing, communicating and implementing the 
Department's initiatives.

    Question 3. Have you formulated any thoughts on what your new job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. If confirmed as Assistant Secretary, beyond media and 
public affairs, I will manage the Department's communications--both 
internal and external--and oversee programs relating to 
intergovernmental relations, homeless veterans, consumer affairs, and 
the Department's six national rehabilitative special event programs. I 
will also oversee the Office of Tribal Government Relations.
    If confirmed, I will approach this position in the same way that I 
have approached other opportunities--surround myself with the best 
people possible, have a clear mission and work hard. First, the VA is 
already staffed with passionate and knowledgeable people, and, if 
confirmed, I plan to lean heavily on this existing experience within 
the VA. In addition, I will actively seek input from the leading 
Veteran Service Organizations (VSOs). Second, if confirmed, I will 
approach my job responsibilities in accordance with the Department's 
clearly defined mission in the Strategic Plan Refresh. Finally, I know 
who our customers are--my fellow veterans. Being a veteran is more than 
a label or classification; it represents a unique and distinctive 
experience, and one that I know personally. It is this shared 
experience that will drive me to work hard every day, if confirmed, to 
represent veterans' interests.

    Question 4. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. Success would be achieved by significantly increasing the 
number of veterans who know of the VA's benefits and services, 
understand the path to receive them and move through that path. If 
confirmed, a major part of my legacy would be to use today's 
technological advancements and modern communications strategies to 
maximize the number of veterans the VA reaches.

    Question 5. What do you see as the biggest challenge the Office of 
Public and Intergovernmental Affairs will have to overcome when 
confronting perceptions about VA?
    Response. Perceptions are difficult, but not impossible to change. 
With my experience with the VA health care system, the New GI Bill and 
the VA home loan process, I know first-hand how important every 
interaction is between the department and a veteran. I know the 
employees of the VA work hard to show veterans of all eras that the VA 
is here to serve them. But the work is far from over.
    Leading my Special Forces team I was responsible for making and 
meeting a plan. Staying focused on the VA's plan to end veteran 
homelessness, reducing the claims backlog and increasing access should 
remain a priority. These are ambitious goals and will require clear and 
consistent messaging to both internal and external stakeholders. OPIA 
is just a part of this effort, but a critical part of changing 
perceptions. This will depend on results but also on the ability to 
share facts in a way that will build trust with Veterans and the 
public.

    Question 6. How would you describe your management style and how is 
it suited to this particular position?
    Response. My leadership style is a product of my time in the 
military and my time in the private sector. First, I have learned to 
plan for everything. Leading my Special Forces team taught me diligence 
and discipline, and I expect the same from the people on my team. 
Similarly, the private sector taught me the value of diligence, 
planning and preparation. I strive to make well thought out, deliberate 
choices.
    Second, my management style involves empowering my team. As a 
leader, I set the bar high and expect my team to match. High 
expectations empower both individuals and the team as a whole. This 
empowerment leads to greater efficiency, better results and greater 
team satisfaction.

    Question 7. How does your previous experience contribute to your 
qualifications for this new position?
    Response. In the military, as a media and politics professor, and 
through political campaigns, I have had a wide variety of interactions 
with media. These experiences have helped me understand the benefits of 
proactive engagement, how to manage successful media campaigns, and the 
intricacies of the process. Additionally, my work with the Iraq and 
Afghanistan Veterans of America taught me how VSOs contribute to both 
providing services and shaping the Nation's veterans conversation. Most 
recently, I worked for McKinsey & Company, where I learned hands-on 
that not all solutions are government solutions. If confirmed, I want 
to bring the rigor of the business world to this position, and develop 
collaborative solutions to veterans' issues.

    Question 8. As the official who will be responsible in theory for 
the public face of the Department, you most likely will need to deal 
with situations where an incident at one VA facility generates 
substantial negative press and public interest that seems to impact the 
Department. How would you respond to such an incident?
    Response. If confirmed, my response would be simple--tell the truth 
and strive to keep all stakeholders informed. Veterans and the general 
public need to continuously hear the facts from VA and the steps we are 
taking to improve benefits and services generally, but especially when 
incidents occur in our facilities and programs.

    Question 9. There are various means of communicating with different 
generations of veterans and their families. How can VA best communicate 
with the broad spectrum of the American public that the Department 
serves? Please describe specific media outlets and other communication 
media that you would seek to use if confirmed.
    Response. Traditional media outlets--television, newspaper and 
radio--are still the best way to reach the most veterans across the 
country. I have extensive experience developing and implementing 
communication strategies using all three media, and will make it a 
priority to use all methods to discuss VA services. That said, 
communication in the modern day is more than just speeches and 
interviews; it is social media. I have seen the power of Facebook, 
Twitter, and Google. But the VA has seen this too; I have been very 
impressed with the VA's efforts in social/new media. If confirmed, I 
will seek to continue and expand the ongoing work in this area.

    Question 10. In a report by the Center for New American Security 
entitled ``Well After Service: Veteran Reintegration and American 
Communities,'' the authors argue that ``* * * the fact that only 53 
percent of eligible veterans of Operation Enduring Freedom, Operation 
Iraqi Freedom and Operation New Dawn have used VA health services 
reflects the inadequacies associated with outreach to veterans.''
    a. Do you share this assessment of VA's outreach efforts?
    Response. The Secretary has publicly stated his goal of improving 
access to the VA. If confirmed, I will work to ensure veterans are 
aware of the services VA provides and reduce any communications 
barriers.

    b. If confirmed, what will you do to address concerns, like those 
expressed in this CNAS report, regarding VA's outreach to veterans?
    Response. From everything I know about the VA's work in this area, 
they have a robust outreach program. If confirmed, I will seek to 
continue this work through further partnerships with state and local 
veterans organizations, VSOs and the Department of Defense, as well as 
partnerships with business and the private sector.

    Question 11. Although VA has been treating women veterans for many 
years, I believe that some women veterans are reluctant to seek care at 
a VA facility, while others don't see themselves as veterans. What 
thoughts do you have on how to communicate to women veterans that VA is 
prepared to provide gender-specific care?
    Response. This is a strong priority for me. In my many visits and 
appointments at VA medical facilities, I've rarely seen women in the 
waiting rooms. This perception--that the VA medical system is geared 
toward men only--must change. Just like all veterans, women deserve the 
best care possible. The key is making sure that every veteran, male or 
female, knows exactly what the VA can do for them, and what specific 
services the VA can offer. I know that VA has made significant 
investments in updating programs, and services for women veterans in 
the last few years and if confirmed, I look forward to using my 
position as Assistant Secretary to continue and expand outreach to 
women veterans.

    Question 12. As the individual with principal responsibility for 
Intergovernmental Affairs at VA, you will have a major role in 
coordinating many issues, responses, initiatives, and a wide variety of 
things with many other Federal agencies, in addition to state, and 
local and governments. What are your expectations for how you will 
interact with these departments and agencies?
    Response. When I was in the Special Forces and deployed in Iraq, I 
interacted with a wide variety of government agencies, both Iraqi and 
US. I learned that constant communication is essential, builds lasting 
relationships, and facilitates sound policy. If confirmed, I plan to 
work to facilitate an open collaborative relationship with key 
government stakeholders.

    Question 13. What do you see as VA's role in working with other 
departments and agencies, especially the Department of Housing and 
Urban Development, through the Interagency Council on Homeless or 
otherwise, to address the needs of homeless veterans and their 
families?
    Response. During my last move, I was assigned to a VA clinic that 
aggressively serves the homeless veteran community. I have seen first-
hand the critical role these clinics play as a first response for 
homeless veterans. To that end, if confirmed, I would ensure that 
information about programs that share President Obama and Secretary 
Shinseki's ambitious, noble and right goal of eliminating homelessness 
amongst veterans is shared nationally.
    If confirmed, my primary focus would be to communicate, both to 
veterans and to the public at large. We need to make sure that homeless 
veterans know that the VA can help, but also raise awareness of the 
issue in the public sphere. As an aggressive advocate for veterans, I 
would continue the important work already underway at the VA ensuring 
that this issue is given the attention that it deserves.

    Question 14. Veterans are fed up with the ongoing dysfunction of 
the claims system. Despite the Department's best efforts, the size of 
the backlog continues to grow.
    a. Do you think the Department's efforts are sufficient to address 
the problem?
    Response. My experience with the VA system has been exceptional, 
but I know and have heard of the problems others face. We can do 
better. I believe the Department's plan to eliminate the backlog in 
2015 through a mix of people, process and technology initiatives is the 
right type of approach.

    b. What do you believe needs to be done to effectively transform 
the claims system?
    Response. Again, communication is key--for many, the VA system is 
complex and can seem daunting. If confirmed, one of my responsibilities 
will be taking the complexity of the system and communicating it in a 
way that any veteran can understand. This includes the steps involved 
in submitting a claim and ways veterans can get updates on their claims 
status. Presentation, through a clear Web site and online tools, is an 
integral part of improving the use of the claims system. The VA's use 
of eBenefits and their development of a paperless claims system are 
exactly the type of initiatives that will help with the claims backlog.

    Question 15. Native Americans serve at some of the highest rates 
per capita, but are often unable to access the VA benefits that they 
have earned.
    a. If confirmed, how do you plan to use the resources within your 
office to improve their ability to access VA health care and benefits?
    Response. If confirmed, I would be responsible for American Indian 
and Alaska Native veteran outreach, and would work to increase 
collaboration between the VA, the Indian Health Service and tribal 
governments, along with state and local veterans organizations. The 
VA's Office of Tribal Government Relations will be crucial for these 
efforts.

    b. What concrete steps will you take to encourage increased 
collaboration between VA and tribal governments?
    Response. Clear communication with Native Americans/Alaska Native 
veterans and tribal leaders will help to facilitate access to VA 
benefits and services. Building relationships with the tribal 
governments, along with the state and local leaders in the Native 
American community, will be a priority. All entities working with 
veterans, from tribal governments to state and local veterans 
organizations, have the same goal: maximizing enrollment in VA 
services, so veterans can get the care that they deserve. If confirmed, 
my job will be to make sure they are pointed in the same direction.

    Question 16. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve?
    Response. Yes.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Thomas Skerik Sowers II, Ph.D., to the Office 
of General Counsel, U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. Thank you very much, Dr. Sowers, very 
compelling testimony and we really appreciate your willingness 
to serve your country in this new capacity. So, thank you very 
much, and tell your family members and support teams that are 
back there thanks for being here for you as well.
    Let me begin with questions and then we will go around to 
all of our Senators here, but I wanted to ask you because, you 
know, too often today servicemembers leave the military unaware 
of the benefits and services that they have earned, and we 
often hear from veterans who do not know they are eligible for 
a variety of programs that are offered by the VA.
    Now, the VA has been trying to increase their outreach 
efforts but there is a lot of work left to be done. So, I 
wanted to ask you, if confirmed, how you would work to improve 
some of the outreach efforts to make sure that our 
transitioning servicemembers and veterans get the information 
they need to make the right decisions at the right time.
    Mr. Sowers. Chairman Murray, thank you very much for that 
question.
    Special Forces is a unique community. You are sent off on 
small teams and, if you would just depend on that team and that 
team alone, they are very good but it is only 10 or 12 
soldiers.
    What you need to do is partner. You have to partner with 
local allies, the local governments, the local agencies that 
are out there; and that is how I think we can really, truly 
expand our outreach, doing it in a fiscally constrained 
environments, is working through the veteran service 
organizations and agencies that are already out there doing 
great work.
    I did not get a chance to introduce them but with me here 
today is Bob Obana. He is the CEO of NCIRE, the veterans health 
initiative. This is an innovative non-profit that has partnered 
with the VA. It is partnered with the local medical schools and 
it is doing cutting-edge TBI-PTSD research.
    Those sorts of partnerships are out there. I want to shine 
a light on them. I do not want to reinvent the wheel in every 
State or in every community, but let us find the partners that 
are truly producing and, in this ocean of goodwill, find the 
ships that are really delivering, using some data and measuring 
our output along the way.
    Chairman Murray. I am particularly concerned that about 
half of our Iraq and Afghanistan veterans do not utilize the 
VA. You know that population well.
    How do we better reach them?
    Mr. Sowers. Chairman Murray, I am glad that you recognize 
the uniqueness of the population. Yesterday, I was talking with 
a leader of the Vietnam veterans movement and he said, you 
know, what has driven me for the last two decades is what 
happened to me should not happen to you.
    My approach is a little bit different. It is what has 
happened to me I want, I want other veterans to be eligible for 
this.
    So, having a targeted approach toward Iraq and Afghanistan 
veterans is key. The Department has been very forthcoming on 
social networking. That is an important medium. I would like to 
see an expansion of direct communications we discussed of e-
mail.
    But, I think also, as you pointed out, Chairman Murray, and 
Senator McCaskill, the fact that Secretary Shinseki and 
President Obama have nominated me for this position, I think 
speaks to their priorities, that they would like to have a 
young Iraq-Afghanistan veteran within their close counsel. And, 
it is a deep honor for me, if confirmed, to join that team and 
to provide that counsel.
    Chairman Murray. OK. You know, all too often the 
significant amount of good work that is done by VA employees 
every day does not ever reach the public and it is often 
overshadowed by the latest incident or report in the media.
    I really want veterans to be proud of the VA and that is 
increasingly hard when the narrative is often shaped by the 
most recent crisis.
    So, I wanted to ask you today how you would break through 
this impasse to be in more effective communication with 
veterans and the public so that they are aware of the great 
things that the VA does as you have described about yourself.
    Mr. Sowers. Chairman Murray, thank you very much, and it is 
one of the reasons why I am very excited about joining at this 
time and, if confirmed, joining the team that is currently over 
at the VA.
    It is led by General Shinseki, a true example of a military 
leader and a public servant, and I know that he and his team 
know the principles of war and one of them is you have to be on 
the offense. You cannot be on the defense.
    And, to me, if confirmed, I would have a personal 
philosophy of we cannot wait and hope that the good news 
stories are going to be covered, that we have to be aggressive 
and just as aggressive and just as urgent as when we are 
responding to a negative event as we are with a positive event.
    Chairman Murray. Very good. Let me turn it over to Senator 
Burr for his questions.
    Senator Burr. Thank you, Chairman.
    Dr. Sowers, I should have said at the beginning in my 
opening statement that you had an opportunity to intern with a 
Member of Congress that I thought was one of the greatest we 
ever had, Bill Emerson, and we all certainly miss Bill and have 
for a number of years. I hope that that experience and 
opportunity was helpful to you.
    Let me start with a little bit of housekeeping, if I can. 
As the Ranking Member, part of my role is to conduct the 
oversight with regard to VA's activities. This often leads me 
to make requests for information, statistics, briefings, and 
other materials from the VA. If confirmed, will you ensure that 
my staff and I will be provided with the requested information 
in a timely manner?
    Mr. Sowers. Ranking Member Burr, I will.
    Senator Burr. If confirmed, will you be proactive at 
alerting the Committee, including both sides of the aisle, 
about significant issues involving VA?
    Mr. Sowers. Ranking Member Burr, I will.
    Senator Burr. Dr. Sowers, until March of this year, the VA 
was unable to provide the Committee with the amount VA, as an 
enterprise, spends on outreach. According to the data provided 
in March, the VA spent about $76 million on outreach from 
fiscal year 2009 through 2012. But, without a coordinated 
outreach plan during that time, VA could not determine the 
effectiveness of the outreach.
    Do you have any initial thoughts on what steps you would 
take, if confirmed, to make sure that VA is able to gauge the 
effectiveness of specific outreach programs?
    Mr. Sowers. Ranking Member Burr, thank you for that 
question.
    There are some challenges in determining which outreach is 
most effective. I think, you know, in political communications 
it is often wonder of what is actually delivering the message 
that we need.
    What I can say is I have spent some time now in the private 
sector, and I find that has put in me a much more data-driven, 
metrics-oriented approach; and it is an approach that, if 
confirmed, I hope to bring to the Department.
    In addition, one thing with the new technologies is that 
they allow us to quantify metrics in a much clearer way than we 
had in the past.
    In the past we did not know maybe who was receiving the 
brochures or the printed material. Now we can know which Web 
sites are being reached and which ones are not.
    So, to me what I care about is not necessarily more 
outreach in terms of quantity but quality of outreach and, if 
confirmed, that will be a focus of mine.
    Senator Burr. VA has developed a 5-year plan to eliminate 
homelessness based on six integrated pillars including 
outreach, education, and community partnerships.
    According to the VA, the Assistant Secretary for Public and 
Intergovernmental Affairs is, and I quote, ``the executive 
sponsor and has oversight responsibilities for a VA's 
initiative to end homelessness.''
    Can you explain your understanding of what that means and 
what role you play in implementing or overseeing VA's 
homelessness program?
    Mr. Sowers. Ranking Member Burr, thank you for that 
question.
    I am outside of the organization now and one of my 
priorities, and you have this in my background, is to rapidly 
assess a situation once I get into it.
    The first Special Forces imperative is to understand the 
operational environment; and I think one aspect of this is the 
intergovernmental role: I was assigned to the San Francisco 
Downtown Medical Clinic, and that medical clinic is really a 
pointy tip of the spear of many homeless veterans that come in 
and use that facility.
    But, there are many organizations out there that if we are 
to take on the challenge of not just reducing but ending 
homelessness among veterans, we need close partnerships with 
the police that encounter them, the local non-profits that are 
already out there assisting.
    So, I think there is a vital intergovernmental role to 
achieve that goal.
    Senator Burr. Great.
    If VA finds that veterans are unable to manage their own 
finances, VA sends their names to the National Instant Criminal 
Background Check System or NICS which presents them from 
purchasing or owning firearms.
    As a result, more than 127,000 veterans today are currently 
on the NICS list. Until we change the law, the only way those 
veterans can get off of that list, once they have been 
determined they cannot handle their finances, is to request 
relief from the VA.
    Although VA stood up a relief process in 2010, only about 
185 individuals have sought relief so far, which suggests to me 
that few people know about or understand this option.
    First, do you agree that it is unfair to send someone's 
name to the NICS list simply because they need help with their 
finances?
    Mr. Sowers. Ranking Member Burr, the story and the facts 
that you are saying are new to me; and if confirmed, it is an 
area that I would like to explore and understand more fully.
    Senator Burr. Would you agree that taking away someone's 
constitutional right to own firearms should be a pretty high 
threshold?
    Mr. Sowers. Ranking Member Burr, I would agree.
    Senator Burr. Good. Thank you for your answers, for your 
willingness to serve, and as a board member of West Point, for 
the time you spent there educating the great group of 
individuals we have got who serve today.
    Thank you.
    Chairman Murray. Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Madam Chair.
    We really do appreciate your service to your country which 
has been outstanding, and I enjoyed visiting yesterday and just 
getting to know you a little bit personally. I very much 
enjoyed that.
    You know, when I was in the House, I was the Ranking Member 
on economic opportunity; and as you know better than anybody, 
being out and about, you know, the high unemployment that 
veterans face right now is such a difficult climate for all of 
us but particulate veterans.
    Part of that is the fact that with all of these deployments 
that have gone on employers should not but they probably do 
somewhat, if you know somebody in the Guard or whatever is 
going to be deployed multiple times and you are a little bit 
perhaps leery of taking that on if you have a very small 
business.
    But, for whatever reason, the better job you do of 
communicating what is out there really does help us so much in 
that regard. If you make it such that a person can support his 
family, you know, take care of them, then you do not have a lot 
of the behavior that comes, you know, self-destructive behavior 
that leads to things like homelessness and suicide which, 
again, is such a huge problem.
    So, again, we appreciate your wanting to take this task on.
    Can you comment a little bit about your experience? One of 
the things that we in the Congress have struggled with and 
really our generation, I mean, I have got a Blackberry and this 
and that, my children, people your age are just totally Web-
based.
    Do we need to do a better job of switching over to the Web-
based where, like I say, I still look for the phone book to get 
a telephone number?
    Do we need to do a better job of switching over to Web-
based, making things more viable in that regard?
    Mr. Sowers. Senator, thank you very much for that question.
    There are some huge advantages of shifting into more of an 
electronic or Web-based. The VA was one of the pioneers in 
electronic medical records.
    As we discussed, I am a rural veteran, and 44 percent of 
our recruits come from rural America. So, I think especially 
that aspect of technology because in my hometown we do not have 
a VA facility, but we have a lot of folks on mine. If we can 
help deliver messages and communicate across that medium in a 
direct way, I think more veterans will be able to receive the 
benefits that they deserve.
    Senator Boozman. I agree totally. The other thing is that I 
hope that you would work, you know, closely with the Transition 
Assistance Program. The better job that they do, you know, it 
makes your life easier, you know, in trying to take care.
    And, then also, you know, certainly that is something that 
should be to me, you know, working in conjunction as you are 
preparing to get out and then get out, that ought to be a 
pretty good transition. So, anything you can do to link all of 
the communications efforts together, I think, would be really 
beneficial.
    The Paralympics, I know that you will have that 
responsibility. You know, many of us are being very active in 
that regard. We look forward to helping you and working in that 
regard to make sure that, you know, that we are doing the best 
job that we can.
    Can you comment a little bit on that program and kind of 
your thoughts although a bit about it?
    Mr. Sowers. Senator, I think it is a very vital program. As 
you know, due to the advances of health care and combat health 
care that we have, we have a greater proportion of disabled 
veterans now that we are going to have for many, many years. 
And, these sorts of programs that honor their service and 
really celebrate their service I think are vitally important.
    Senator Boozman. Very good. Again, we appreciate your 
service and look forward to working with you in the future; and 
certainly anything we can do to help be sure and let us know.
    I would be very interested if you do run into things that, 
you know, you mentioned earlier of bringing the fresh, and we 
do have plenty of fresh ideas in the VA. I do not mean that at 
all but your perspective as a fairly young, a former soldier 
getting out and seeing firsthand the challenges.
    As you see areas that perhaps we can help legislatively, 
you know, to tweak things, be sure to let us know so that we 
can help you move forward.
    So, thank you, Madam Chair.
    Chairman Murray. Thank you very much.
    Dr. Sowers, as you know, the VA is in the midst of 
implementing its Claims Transformation Plan, which is the 
Department's effort to fix VA's broken claims processing 
system.
    A lot of our veterans are continuing to find themselves 
waiting months and in some cases years to get an accurate 
decision on their claim. And, part of your job will be to help 
explain to veterans this transformation effort, and their 
family members actually, and a lot of them have had a negative 
experience because of that.
    I wanted to ask you how you are going to overcome the 
skepticism and mistrust that surrounds the disability claims 
system and really make sure that VA is able to solve this 
problem.
    Mr. Sowers. Thank you, Chairman Murray.
    As you know, I went through the claims process just 3 years 
ago. I want to characterize that it was not skepticism or 
mistrust in my case; I just did not know.
    I had been serving. While I was serving, I really was not 
very aware of the VA benefits that were out there. I think my 
experience is very similar to a number of servicemen and women 
out there.
    So, the way I got over the, I would not call it mistrust 
but just unknowing, was I had a buddy and they taught him that 
in the military. He had left the service about a year prior to 
me and had gone through the claims process, had made some 
mistakes along the way in terms of not having his paperwork 
documenting his condition and so he taught me.
    I would like to see that sort of active partnership be out 
there. I mean, the best way we can attack mistrust is to have a 
claims process that people go through and they are able to help 
other people move through it.
    Chairman Murray. So, some kind of peer effort, so, people 
helping people get through it and learning it?
    Mr. Sowers. It is the way we tend to learn things in the 
military. I mean, a large reason why I would jump out of a 
plane in the middle of the night was because the person in 
front of me did it and the person behind me was about ready to 
do it.
    [Laughter.]
    Chairman Murray. I got it. OK.
    I also wanted to ask you, you mentioned a little bit, VA 
has to work effectively with a lot of different government 
partners to address challenges. The Department of Housing and 
Urban Development for homelessness, the Department of Health 
and Human Services to work on a lot of issues including the 
expansion of the electronic health information, and especially 
with the Department of Defense to build a truly seamless 
transition, which has been a real focus of mine.
    In the case of the Department of Defense, departments do 
not always work together well, and as a result, veterans are 
often underserved.
    How would you work to improve that collaboration with the 
Department of Defense?
    Mr. Sowers. Chairman Murray, thank you for that question.
    Senator, you brought up the TAP program, which is vitally 
important. I know this Committee has focused much effort on 
improving the TAP program.
    That is the critical transition moment, when you are 
pulling yourself out of war and combat and serving in a 
uniform, then becoming a veteran. The TAP program, I think, is 
a key moment where we need to have a common message and a 
common handoff between the Department of Defense and the 
Veterans Administration.
    If confirmed, I would like to work closely with my 
counterparts over in DOD, especially on that communication 
message to make sure we have a common message during that 
transition.
    Chairman Murray. I would encourage you to do that very 
quickly once confirmed because I have a lot of meetings with 
both DOD and VA where they both say, oh, we meet on a regular 
basis.
    There has to be more than meetings. There has to be real 
communication, and I think you have identified a key place 
where you can work with them to make sure we are all on the 
same page moving forward. This is absolutely a top priority of 
ours.
    Senator Burr, do you have any other questions?
    Senator Burr. No.
    Chairman Murray. Senator Boozman.
    Senator Boozman. The only thing I would say, Madam Chair, 
in regard to TAP is that I agree with you totally, and the 
other thing is anything that you can make where you can involve 
families, spouses, I think that is really important.
    I think that is an area that we miss out some in TAP 
because many times the wife is like my wife. She does the 
bookkeeping, you know, those kind of things, pays the bills, 
this and that; and that is the way it is in many families, 
which works well.
    I think family involvement is so important and yet she is 
probably working. So, anything you can do to make things 
available in hours that both of them are available which might 
be in the evening or whatever, I would really encourage you to 
do that. And really, really try to see how we can include the 
entire family versus, you know, when only the individual 
soldier is available.
    Then, it might be the reverse. We have so many female 
soldiers now that, you know, again making sure that we balance 
all of that out.
    Thank you.
    Chairman Murray. Thank you very much.
    Senator Begich has just arrived. I am going to give him a 
moment to sit down. Senator Begich, I believe you are the last 
to ask any questions of Dr. Sowers, so if you are ready we will 
turn to you.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Madam Chairman, thank you very much.
    Max, it is very good to see you. Thank you. I have been to 
your State more than once so thank you for being here.
    Doctor, I know we talked a little bit yesterday, and I just 
wanted to really kind of put on the record the issues around 
tribal issues.
    You will oversee part of that and how that relates to the 
VA. And, as you know, a little fewer than half the tribes in 
the Nation are in Alaska, not by population but by tribal 
identification. It is a pretty significant part of our efforts 
in delivery of service.
    Maybe you can comment generally on how you see your role in 
relation to the tribes of not only my State but this country, 
the VA, and how we can connect those better especially because 
almost all the tribal activities in rural parts of our country 
and the rural part of our State.
    Mr. Sowers. Senator, I thank you for your question. Since 
our meeting, I have been thinking more about that outreach; and 
if confirmed--I am a rural veteran. I know the importance of 
and the challenges when you cannot just drive 10 minutes down 
to the local VA facility but you have to drive, in my case it 
was an hour and a half, and for many of your veterans cases, it 
is significantly longer.
    But, outreach to the specific tribes is going to be an area 
of focus. I think there needs to be a specific, targeted plan; 
and I know that within the Department they have dedicated 
resources toward that.
    One of my priorities, if confirmed, will be to fully 
understand the programs that are currently out there, the 
outreach; and if I may, I would take you up on that offer to 
come Alaska and see it for myself.
    Senator Begich. Absolutely.
    Chairman Murray. Did he tell you how long it takes to get 
there before you go?
    [Laughter.]
    Senator Begich. That is part of the education program for 
members of the Administration. That is just to get to Anchorage 
and then we will take him out to a village. But we thank you 
for that. It is important.
    I think in a lot of cases the lack of understanding of what 
veterans in rural communities, especially in tribal communities 
go through to get service, and as you know, VA is working with 
us right now in regards to our travel consortium up there to 
deliver health care through our Indian Health Services 
facilities in remote areas that are non-road access.
    We have already had 16 tribal organizations sign up, which 
we think is great. This will allow veterans to have a choice. 
Instead of living in a small village where they may have a 
clinic right across the street where they can get their basic 
care for the VA needs, they in the past had to fly to 
Anchorage, which could be a cost of an easy $800 to $1,000, 
plus room and board as well as being away from their families.
    Now, they will have a choice, and we think this is going to 
be a model for the rest of the country, how to access and 
utilize our Federal resources at a much better level than they 
are today.
    Indian health care services in Alaska are premier, 
delivered by the tribal community. No disrespect to the Indian 
Health Services. They are not delivered by the Indian Health 
Services. They are delivered by the Tribal Consortium because 
of the deep community aspect of it.
    The VA is working with us now, and we hope to see that as a 
great model; and, as you get in this new position, your review 
of that and your input will be very helpful for us because I 
think there is no question about the cost of health care is to 
the person, the cost to the families. The odds are they are 
going to get healthier quicker; and so, I just want to put that 
on your radar screen.
    This has been an agreement that was signed in the last few 
months, and I think we have about 16 or 17 tribal consortia 
groups that have signed on and will be delivering it is very 
basic laboratories.
    They can go across the street or across the dirt road or 
across the trail to get their service, and then the VA will 
reimburse the Tribal Consortium for that care rather than 
having to fly them, because the VA has some process they have 
to go through.
    Care is equal or better, and it will be always up to the 
veteran to make that choice, not up to the system. So, we think 
it is an interesting model. So, we will be anxious to get your 
input and again work with that to make sure it is successful.
    Let me say, Madam Chair, I have a variety of questions that 
I may submit for the record. I know you all have been very 
patient with me to run back over here and ask a few questions.
    Dr. Sowers, I am anxious for you to come up; and if you 
come up in the winter, you get extra points. If you come in the 
summer, it is just equal.
    But again, thank you, Madam Chair.
    Chairman Murray. Thank you very much.
    Dr. Sowers, I really want to thank you for being here today 
answering the questions. Some Committee Members may submit 
questions for the record. I really again want to thank you for 
your desire to serve our Nation's veterans.
    To our Committee Members, I would ask that you get all of 
your questions to our Committee's legislative clerk by close of 
business tomorrow.
    Senator Webb has just joined us. Just by a hair you almost 
got out of having to answer any more questions, but Senator 
Webb has arrived. I will give him an opportunity to ask any 
questions before we close.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you very much, Madam Chairman. I am 
going to be fairly brief, and I think this will be rather 
painless. I just wanted to stop by and give my voice of support 
here for Dr. Sowers. They say that you certainly have all of 
the credentials necessary to step into the job that you are 
going to do.
    I enjoyed our meeting when you came by and our previous 
meetings. I know your family has come from Missouri to be here, 
so greetings to them. Your family has a real tradition of 
military service. I think you said two uncles and a grandfather 
had served in Vietnam, is that correct?
    Mr. Sowers. That is correct, Senator.
    Senator Webb. I was also aware that Max Cleland and Senator 
McCaskill both were here. Well, Max Cleland is right here.
    By God, you snuck up on me, Max. [Laughter.]
    I had the privilege many years ago to work with then VA 
Administrator Cleland when he and I and, I think, Chuck Hagel 
were among the very first Vietnam veterans to be working on 
these issues; many, many years ago.
    I was a counsel, as you and I discussed, and as Max 
remembers I was counsel on the House Veterans' Committee during 
that time. We did a lot of pioneering work on issues like Agent 
Orange, PTSD, some of the very first hearings that were held on 
a lot of those issues.
    So, you have a lot of firepower coming with you to this 
hearing, and I wish you all the best in your position. I have 
one question for you.
    In this position, you are much more an implementer than a 
developer of policy I would say. What is your overall goal here 
in terms of carrying out the duties of your position?
    Mr. Sowers. Senator, thank you very much for that question, 
and I think there is going to be one primary metric, if 
confirmed, which is the number of veterans receiving their 
benefits. When I leave, if confirmed or when I arrive, that I 
have had an incredibly positive experience in the VA through 
the new GI Bill, through health care, through the home loan 
program.
    As I stated earlier, I spoke with one of fellow Vietnam 
veteran leader just today. He was giving me some advice and 
said that, you know, he wanted to ensure that what happened to 
him did not happen to me. That is what has been driving him.
    What is driving me is a little bit different. It is what 
has happened to me. I want more veterans to get through the 
claims process in a timely manner, to receive their health 
care, to receive their education benefits, and their home loan 
benefits.
    So, that will be my primary driver.
    Senator Webb. Well, you know, in the time since I have been 
in the Senate, the backlog has dramatically increased in terms 
of metrics. I think you probably understand why. I mean we have 
a double increase in the load from the Vietnam veterans, some 
of them aging out, wanting to get into the medical care system, 
plus the Agent Orange claims, and then the Iraq/Afghanistan 
veterans coming in with their claims.
    So, it is a huge, huge problem just in terms of 
administration, so I wish you the best on that.
    I will not take anymore time, Madam Chair. I appreciate 
your fitting me in here at the very end. I wanted to come by 
and pay my regards.
    Chairman Murray. Thank you very much, Senator Webb.
    Dr. Sowers, thank you again very much. I look forward to 
working with Ranking Member Burr to schedule a markup and move 
your nomination forward. So, again, thank you on behalf of all 
the Senators and the Nation for your willingness to serve our 
country.
    Thank you to all of your family members, support team, and 
comrades who have come here today to support you as well.
    With that, this hearing is adjourned.
    [Whereupon, at 10:49 a.m., the Committee was adjourned.]
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
